Department of Homeland Security
   Ofﬁce of Inspector General

            Protective Security Advisor Program 

              Efforts to Build Effective Critical 

                Infrastructure Partnerships: 

               Oil and Natural Gas Subsector
 





OIG-11-12                                       November 2010
                                                            Office ofIllspector Gelleral

                                                             u.s. Department of Homeland Security
                                                            Washington, DC 20528




                             November 12, 2010

                                         Preface

The Department of Romeland Security (DRS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the overall strengths and weaknesses of the DRS Office of
Infrastructure Protection's Protective Security Advisor Program, and the program's role
in protecting the Oil and Natural Gas Subsector infrastructure of the Energy Sector. It is
based on interviews with employees and officials of relevant government agencies and
private sector companies and organizations; direct observations; and a review of
applicable documents and data. This report is one in a series of reviews of DRS' roles,
responsibilities, and performance in the 18 critical infrastructure and key resources
sectors.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                 C~Q~(·
                                  Carlton MannI.
                                      Assistant Inspector General for Inspections
Table of Contents/Abbreviations

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 

   CIKR Protection Strategies, Directives, and Legislation...............................................2 

   DHS’ CIKR Integration Efforts .....................................................................................4 

   Coordination, Collaboration, and Partnership ...............................................................5 

   PSA Program Overview.................................................................................................7 

   Oil and Natural Gas Subsector.....................................................................................10 


Results of Review ..............................................................................................................13 

   PSAs Develop Partnerships to Further Risk Reduction Efforts...................................13 

   Stakeholders Consider PSAs an Effective Resource ...................................................15 

   Recommendation .........................................................................................................26 

   Management Comments and OIG Analysis ................................................................26 


     A Well Defined and Communicated Mission Will Enhance Building 

      Effective Critical Infrastructure Partnerships ...........................................................28 

     Recommendations........................................................................................................30 

     Management Comments and OIG Analysis ................................................................30 


     Coordination and Communication within DHS Needs Improvement .........................32 

     Recommendation .........................................................................................................34 

     Management Comments and OIG Analysis ................................................................34 


     More PSA Program Support to Sector Leadership Partners is Needed .......................35 

     Recommendations........................................................................................................37 

     Management Comments and OIG Analysis ................................................................38 


     Current Metrics are Inadequate to Measure PSA Program Performance 

      and Outcomes ...........................................................................................................40 

     Recommendation .........................................................................................................43 

     Management Comments and OIG Analysis ................................................................44 


Conclusion .........................................................................................................................45 




Figures
     Figure 1: 18 Critical Sectors .........................................................................................5

     Figure 2: Map of PSA and IP Regional Director Distribution .....................................8 

     Figure 3: PSA Partnerships to Risk Reduction ...........................................................14 





       Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                         Oil and Natural Gas Subsector 

Appendices
  Appendix A:      Purpose, Scope, and Methodology .......................................................46 

  Appendix B:      Management Comments to the Draft Report ........................................48 

  Appendix C:      Sectors, Subsectors, and Sector-Specific Agencies ..............................55 

  Appendix D:      PSA Program Organization Chart ........................................................57 

  Appendix E:      Energy Government Coordinating Council Membership .....................58 

  Appendix F:      Oil and Natural Gas Sector Coordinating Council Membership ..........59 

  Appendix G:      Major Contributors to This Report .......................................................61 

  Appendix H:      Report Distribution ...............................................................................62 




Abbreviations
   BZPP              Buffer Zone Protection Program
   CIKR              Critical infrastructure and key resources
   DHS               Department of Homeland Security
   DOE               Department of Energy
   ECIP              Enhanced Critical Infrastructure Protection Initiative
   FEMA              Federal Emergency Management Agency
   FOIA              Freedom of Information Act
   GCC               Government Coordinating Council
   IP                Office of Infrastructure Protection
   NICC              National Infrastructure Coordinating Center
   NIPP              National Infrastructure Protection Plan
   NPPD              National Protection and Programs Directorate
   OIG               Office of Inspector General
   PCII              Protected Critical Infrastructure Information
   PSA               Protective Security Advisor
   PSCD              Protective Security Coordination Division
   RRAP              Regional Resiliency Assessment Program
   SAV               Site Assistance Visit
   SCC               Sector Coordinating Council
   SSA               Sector Specific Agency
   TSA               Transportation Security Administration




   Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                     Oil and Natural Gas Subsector 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  The Department of Homeland Security is responsible for protecting and
                  strengthening resiliency of the nation’s critical infrastructure and key
                  resources, which are assets, systems, and networks integral to the
                  nation’s economy, security, and public health. As private industry owns
                  and operates a significant portion of the nation’s critical infrastructure,
                  the department emphasizes developing and sustaining public and private
                  sector partnerships to secure and protect critical infrastructure. Within
                  the department, the Protective Security Advisor Program develops these
                  relationships and supports risk reduction activities.

                  We reviewed Protective Security Advisor Program activities to support
                  the department’s mission to identify, prioritize, assess, and protect the
                  nation’s critical infrastructure and key resources in the Oil and Natural
                  Gas Subsector of the Energy Sector. We also reviewed program efforts
                  to coordinate with subsector stakeholders to help strengthen critical
                  infrastructure protection capabilities, identify vulnerabilities, and reduce
                  risks.

                  Public and private stakeholders confirm that the Protective Security
                  Advisor Program is an effective resource. As more innovative methods,
                  techniques, and tools are developed, the program is adapting
                  accordingly to meet the needs of department partners and to maintain
                  program staff capabilities. While extensive stakeholder relationships
                  and partnerships are developing at the state, local, and community
                  levels, more attention is necessary to incorporate national level partners
                  and stakeholders into strategic program planning. In addition, enhanced
                  efforts to coordinate within the department and to collaborate with other
                  federal partners would increase the program’s value to stakeholders.

                  We are making seven recommendations to improve the Protective
                  Security Advisor Program’s effectiveness and to increase program
                  coordination and communication with private and federal partners. In
                  response to our report, the department has proposed plans and taken
                  action that, once fully implemented, will reduce a number of
                  deficiencies we identified. Department officials concurred with five of
                  the recommendations and did not concur with two recommendations.



   Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                     Oil and Natural Gas Subsector 


                                                  Page 1
 

Background
                 Critical infrastructure are assets, systems, and networks, both physical or
                 virtual, which are so vital to the United States that incapacitation or
                 destruction would debilitate security, national economic security, and
                 public health or safety. Key resources are publicly or privately controlled
                 resources essential to the minimal operations of the economy and
                 government. The federal government, state and local governments,
                 communities, and private industry own and operate critical infrastructure
                 and key resources (CIKR); however, the private sector owns a significant
                 portion of CIKR. Currently, there are 18 separate CIKR sectors, for which
                 different federal agencies lead protection efforts. These characteristics
                 make CIKR protection a unique challenge that requires extensive
                 coordination and partnership between and among the public and private
                 sectors.

        CIKR Protection Strategies, Directives, and Legislation
                 The Critical Infrastructure Protection Act of 2001, acknowledged that the
                 public and private sectors were interdependently linked through a network
                 of critical physical and information infrastructures that only a continuous
                 national effort could protect.1 In addition to establishing the current
                 definition for critical infrastructure, this legislation mandated that all
                 actions to limit or prevent exposure of these infrastructures to disruption
                 occur through a public-private partnership.

                 In July 2002, the National Strategy for Homeland Security identified the
                 nation’s strategic homeland security objectives, and identified major
                 initiatives within each to protect the nation’s CIKR.2 It acknowledged that
                 CIKR protection required compatible, mutually supporting strategies and
                 efforts from government and the private sector. Major initiatives outlined
                 included developing a national plan to unify and coordinate the nation’s
                 infrastructure protection efforts; assessing all of the nation’s CIKR to
                 identify vulnerabilities; enabling the sharing, integrating, and protection of
                 the sensitive information collected; and building collaborative partnerships
                 between the federal, state, and local governments and the private sector.


1
  Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct
Terrorism (USA PATRIOT) Act of 2001, Public Law 107-56, Sec. 1016 (October 26, 2001).
2
  On October 5, 2007, the President’s Homeland Security Council updated and reissued the National
Strategy for Homeland Security. It reflected new threat analyses, incorporated lessons learned from
Hurricane Katrina and other catastrophic incidents, and described initiatives originating after the 2002
version as well as those under development for future deployment.



     Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                       Oil and Natural Gas Subsector 


                                                    Page 2
 

                   The Homeland Security Act of 2002, assigned the Department of
                   Homeland Security (DHS) responsibility and authority to fulfill the CIKR
                   missions defined in the National Strategy for Homeland Security.3 The
                   legislation also included the Critical Infrastructure Information Act of
                   2002.4 This Act protects CIKR data voluntarily submitted to the
                   government from disclosure under the Freedom of Information Act, state
                   and local disclosure laws, and use in civil litigation or as the basis for
                   regulatory action.5 Pursuant to the Critical Infrastructure Information Act,
                   DHS has developed and implemented the Protected Critical Infrastructure
                   Information (PCII) Program, an information-protection program that
                   enhances information sharing between the private sector and the
                   government.

                   In February 2003, the release of the National Strategy for the Physical
                   Protection of Critical Infrastructures and Key Assets expanded on critical
                   mission areas identified in the National Strategy for Homeland Security.
                   It described an organizational structure designed to unify CIKR protection
                   efforts, and established the framework for a public-private partnership. It
                   also described specific roles and responsibilities for each partner,
                   including DHS; lead departments and agencies; supporting federal
                   agencies; state, tribal, and local governments, and private industry. In
                   addition, the 2003 strategy identified key initiatives for each critical sector
                   of the economy recognized in the National Strategy for Homeland
                   Security, and for collaborative efforts in resolving issues crossing critical
                   infrastructure sector and jurisdictional boundaries.

                                              In December 2003, Homeland Security
            “While it is not possible to
            protect or eliminate the          Presidential Directive-7: Critical Infrastructure
            vulnerability of all critical     Identification, Prioritization, and Protection,
            infrastructure and key            established a national policy for collaborative
            resources throughout the
            country, strategic
                                              efforts to protect the nation’s CIKR. This
            improvements in security can      directive assigned DHS the responsibility for
            make it more difficult for        coordinating the overall national effort to enhance
            attacks to succeed and can
            lessen the impact of attacks
                                              CIKR protection and leading, integrating, and
            that may occur.”                  coordinating implementation efforts among federal
            -- Homeland Security Presidential departments and agencies; state, local, tribal, and
            Directive-7, December 17, 2003    territorial governments; and the private sector. In
                                              addition, the directive designated certain lead
                     federal agencies as Sector-Specific Agencies (SSA), responsible for CIKR


3
    Public Law 107-296 (November 25, 2002).
 

4
    Title II, Part B of The Homeland Security Act, Public Law 107-296 (November 25, 2002). 

5
    5 U.S.C. § 552
 




       Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                         Oil and Natural Gas Subsector 


                                                      Page 3
 

                   protection activities in their designated sector. It also mandated that DHS
                   and the SSAs coordinate with the private sector to identify, prioritize, and
                   coordinate CIKR protection, and to facilitate information sharing about
                   threats, vulnerabilities, incidents, potential protective measures, and best
                   practices. The directive required DHS to produce an integrated national
                   plan for CIKR, and to implement all systems and procedures for sharing
                   and protecting CIKR-related information among federal, state, and local
                   governmental entities, and the private sector.

          DHS’ CIKR Integration Efforts
                   Founded on the public-private partnership concept, and building upon
                   these previous CIKR policies and strategies, DHS issued the National
                   Infrastructure Protection Plan (NIPP) in June 2006, and updated it in
                   February 2009. The NIPP specifies a framework for increasing security
                   and resiliency of the nation’s CIKR through understanding and sharing
                   information about terrorist threats and other hazards; building security
                   partnerships to share information and implement CIKR protection
                   programs; implementing a long-term risk management program; and
                   maximizing efficient use of resources for CIKR protection. The NIPP
                   defines processes, methods, tools, and relationships that security partners
                   and stakeholders need to achieve these objectives. DHS’ Office of
                   Infrastructure Protection (IP) uses the NIPP framework to lead the
                   coordinated national effort to reduce the nation’s CIKR risk, and to work
                   toward a safe, secure, and resilient national infrastructure based on and
                   sustained through strong public and private partnerships.

                   The NIPP describes 18 “logical collections of assets, systems, or networks
                   that provide a common function to the economy, government, or society,”
                   or critical sectors.6 See Figure 1 for a list of the sectors, and Appendix C
                   for a more detailed description of each sector. The sectors encompass all
                   aspects of the American economy and way of life: essential goods and
                   services, governmental institutions, national defense industries and
                   contractors, connecting data and communications, and economic and
                   business structure services. Many of the sectors cover large, diverse
                   industries, that, although they all provide common services to society,
                   have different needs, approaches, vulnerabilities, and security solutions.
                   In some cases, sectors are broken down into subsectors to address these
                   differences.




6
    National Infrastructure Protection Plan, February 2009.



       Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                         Oil and Natural Gas Subsector 


                                                      Page 4
 

            Sector-Specific Agency Roles
                                                                       Figure 1: 18 Critical Sectors
            DHS is the SSA for 11 of the 18 CIKR 

            sectors (See Figure 1), and coordinates the 

            protection of the seven remaining sectors. 
                      CIKR Sectors
                                                                         Banking and Finance
            SSAs work with DHS, through IP, to 	
                        Chemical *
            implement the NIPP; form partnerships 
                      Commercial Facilities *
            with relevant federal, state, local, and 
                   Communications *
            private sector entities; cultivate information 
             Critical Manufacturing *
                                                                         Dams *
            sharing and analysis; develop protective 

                                                                         Defense Industrial Base
            programs and strategies; and provide 

                                                                         Emergency Services *
            guidance as needed. SSAs also provide, 
                     Energy
            arrange, or facilitate sector-specific 
                     Food and Agriculture
            training, domestic incident management 
                     Government Facilities *
            and preparedness activities, and 
                           Healthcare and Public Health
            interdependency and consequence 
                            Information Technology * 

            analyses. Each SSA is responsible for 
                      National Monuments and Icons 

            developing, implementing, and maintaining 
                  Nuclear * 

            a sector specific plan that describes the 
                  Postal & Shipping * 

            sector’s ongoing and future protection 
                     Transportation Systems *

            initiatives. In addition, SSAs assess sector 
               Water
            progress and report the results to DHS in 
                  * DHS has SSA Responsibility
            sector-level annual reports and in periodic 
                Source: NIPP, February 2009
            performance feedback reports. 


   Coordination, Collaboration, and Partnership
            While DHS leads the national CIKR protection efforts, coordinating and
            collaborating with relevant stakeholders is essential. These stakeholders
            and partners include the companies and trade associations within the
            private sector; public entities responsible for emergency or incident
            management and homeland security; and federal entities that regulate or
            partner with the private sector and state CIKR programs. The NIPP
            presents an organizational structure known as the sector partnership model
            that provides stakeholders with a defined process for coordinating,
            exchanging information, joint planning, and providing information on and
            analysis of governmental efforts and initiatives. The model includes
            overlapping coordinating and advisory councils led by public and private
            sector partnerships, with guidance, tools, and support from DHS.

            IP collaborates with the 18 sectors mainly through the Sector Coordinating
            Councils (SCC), which are the principal sector policy coordination and
            planning entities. Each SCC is self-organized, self-run, self-governed, and
            independent of the federal government. It is composed of sector

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                               Page 5
 

                  stakeholders reflecting the sector’s composition, including owner/operator
                  representatives of facilities, major corporate entities, and trade
                  associations representing companies of varying sizes. In some cases,
                  SCCs exist for subsectors. For example, within the Energy Sector, the Oil
                  and Natural Gas Subsector has an SCC. The SCCs provide forums for
                  private industry to identify and implement effective information-sharing
                  capabilities; organize and coordinate sector policies in planning and
                  preparedness, exercises and training, public awareness, and NIPP
                  implementation activities; integrate public sector plans with private-sector
                  initiatives; and provide input to the government on sector research and
                                                  development efforts and requirements.
          Building partnerships represents the 

          foundation of the national CIKR 
        Stakeholders also interact through a variety
          protection effort. These partnerships
          provide a framework to:                  of other councils. For example, the
           •	 Exchange ideas, approaches, and      Government Coordinating Council (GCC) is
              best practices;                      the public sector counterpart to the SCC and
           •	 Facilitate security planning and     is co-chaired by SSA and IP leadership.7
              resource allocation;
                                                   The Critical Infrastructure Partnership
           •	 Establish effective coordinating
              structures among partners;           Advisory Council affords all of the SCCs
           •	 Enhance coordination with the        and GCCs a forum to engage in joint
              international community; and         discussions and activities that have national,
           •	 Build public awareness.              all-sector effect; and through the CIKR
          -- NIPP, February 2009                   Cross-Sector Council SCC leaders explore
                                                   cross-sector and interdependency matters.
                    The Government Cross-Sector Council, which includes the NIPP Federal
                    Senior Leadership Council and the State, Local, Tribal, and Territorial
                    Government Coordinating Council, facilitates communication,
                    collaboration, and coordination among the GCCs and other federal and
                    non-federal public sector entities.8 In addition, the Regional Consortium
                    Coordinating Council provides a forum for those with regionally based
                    interests in CIKR protection, involving multi-jurisdictional, cross-sector,
                    and public-private sector efforts focused on the preparedness, protection,
                    response, and recovery of infrastructure and the associated economies
                    within a defined population or geographic area.9

7
  IP's Sector-Specific Agency Executive Management Office carries out SSA responsibilities for six of the
18 CIKR sectors: Chemical; Commercial Facilities; Critical Manufacturing; Dams; Emergency Services;
and Nuclear Reactors, Materials, and Waste.
8
  The NIPP Federal Senior Leadership Council consists of leadership representatives from the SSAs as
well as other federal agencies with interests relevant to CIKR protection and resiliency. The State, Local,
Tribal, and Territorial Government Coordinating Council consists of homeland security directors or their
equivalents from state, local, tribal, and territorial governments.
9
  Members of the Regional Consortium Coordinating Council include regional partnerships, groupings,
and governance bodies. Because coordination across government jurisdictions is crucial, the Chair of the
State, Local, Tribal, and Territorial Government Coordinating Council is also a standing member.


     Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                       Oil and Natural Gas Subsector 


                                                    Page 6
 

         PSA Program Overview
                  IP’s mission is to lead the national effort to mitigate terrorism risk to,
                  strengthen the protection of, and enhance the all-hazard resilience of the
                  Nation's critical infrastructure. Within IP, the Protective Security
                  Coordination Division (PSCD) is responsible for assessing vulnerabilities
                  and consequences; developing, implementing, and providing national
                  coordination for protective programs; and facilitating CIKR response and
                  recovery operations in an all-hazards environment to reduce risk to the
                  nation’s CIKR. The Division’s Field Operations Branch manages the
                  Protective Security Advisor (PSA) Program to assist PSCD in carrying out
                  these responsibilities.

                  The PSA Program supports DHS’ CIKR efforts by encouraging state,
                  local, tribal, and territorial governments, and private CIKR
                  owner/operators to participate and collaborate within the NIPP risk
                  management framework. The PSAs are DHS’ on-site critical
                  infrastructure and security specialists assigned at the local level
                  throughout the United States. Through the coordination of vulnerability
                  assessments, incident support, and information sharing, PSAs seek to
                  improve the security posture of the stakeholders.

                  The program began as a pilot in 2004, with one PSA who met with state
                  Homeland Security Advisors and other stakeholders to determine needs
                  and expectations for DHS field-level CIKR protection specialists. Based
                  on the response from those meetings, the program added PSAs in early
                  2005 and developed further. From FY 2005 to FY 2010, the program
                  increased from 56 to 93 PSAs. PSAs are deployed to 70 districts, and the
                  program has a budget of more than $12 million for FY 2010.10 As of
                  September 2010, the program had at least one PSA in all 50 states and
                  Puerto Rico, eight IP Regional Directors, and six PSA positions at
                  headquarters.11

                  The PSA Program has two geographic sections, the East and West, each
                  managed by one Section Chief. Both sections have four designated
                  regions, and one IP Regional Director manages each region. IP Regional
                  Directors report to their respective Section Chief and manage PSA
                  activities in their region. Figure 2 depicts the PSA and IP Regional


10
   Districts include a combination of entire states, portions of states, and major metropolitan areas. Several
PSAs share duties in a number of large cities, as needed to provide adequate coverage for the distribution of
CIKR, while other PSAs cover the remaining portions of the state.
11
   IP Regional Directors function as Supervisory PSAs and are included in the cadre of 93 PSAs.



     Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                       Oil and Natural Gas Subsector 


                                                    Page 7
 

                 Director national distribution as of September 2010. An organization
                 chart showing PSA staff distribution is in Appendix D.

Figure 2: Map of PSA and IP Regional Director Distribution




                                              Source: OIG analysis of information provided by IP, September 2010.



                 Stakeholders expect PSAs to know intimately the districts they serve. As
                 such, program-hiring officials look for prospective candidates with
                 specific background, experience, and relationships already established in
                 particular geographic areas. Current PSAs average more than 20 years
                 experience in military, counter-terrorism, or law enforcement, are
                 specialists in security with critical infrastructure experience and
                 knowledge, and are not necessarily specialists in any particular sector. As
                 PSAs work with stakeholders in all 18 sectors, the position requires a
                 thorough understanding of programs that affect critical infrastructure
                 within DHS and in other agencies, or a significant foundation upon which
                 to build such knowledge.

                 PSA training requirements are structured and delineated in a multi-year
                 Learning Roadmap. The Roadmap defines five levels of advancement and
                 achievement for PSAs, each with specific required training and optional
                 areas of study. It includes required basic knowledge and skills, such as
                 relevant policies, tools, and programs, and progressively builds on that
                 knowledge base to develop specializations and areas of expertise. The
                 training includes courses and instruction developed internally by IP, as
                 well as from a variety of federal agencies and private organizations,


     Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                       Oil and Natural Gas Subsector 


                                                    Page 8

            including DHS’ Federal Emergency Management Agency (FEMA), DHS’
            Federal Law Enforcement Training Center, and ASIS International.

            The program also maintains membership for all PSAs in ASIS
            International, an international organization for security professionals, and
            encourages PSAs to pursue professional certifications ASIS International
            offers, such as the Certified Protection Professional and Physical Security
            Professional.

            PSAs function as the department’s field liaisons and coordinators to
            support critical infrastructure protection efforts. These efforts involve
            collaborating with private industry, state and local governments, and
            federal partners. PSAs are building and maintaining information-sharing
            partnerships; coordinating or performing site vulnerability assessments
            and surveys; and assisting during incidents. After establishing a
            relationship with a stakeholder, the PSA functions as a liaison between
            that organization and IP, and often facilitates access to other DHS
            components, or to state and regional agencies. Although the PSAs build
            relationships with stakeholders in all sectors, a PSA may work primarily in
            the sectors whose infrastructure is the dominant concern for the state,
            geographic area, or district they serve.

            Tools and Resources

            The PSA Program has a variety of technological, human, and physical
            resources that enable PSAs to respond to and interact with geographically
            dispersed stakeholders across the nation and program officials in
            headquarters. For example, the PSAs use a web-based, central data
            warehouse developed to track their activities as well as maintain a
            knowledge base on the nation’s critical infrastructure. This system
            maintains the PSAs’ schedules and activities, which allows program
            officials to respond timely to questions from stakeholders and DHS
            leadership about ongoing fieldwork or work on certain CIKR efforts.
            PSAs can quickly upload incident status updates, report on affected
            facilities, and assist in prioritizing efforts based on the facility’s
            capabilities and its local, regional, and national criticality.

            Program leadership attributes much of the PSA Program success to the
            centralized support provided by its Duty Desk. The Duty Desk, located at
            headquarters, provides 24-hour support to the PSAs and answers both
            administrative and technical questions. The Duty Desk also tracks and
            assigns tasks and information requests from DHS leadership and other
            stakeholders. In addition, the Duty Desk coordinates requests to provide
            speakers at various events or locates appropriate DHS officials outside of
            IP.

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                               Page 9

            The Field Operations Branch’s Field Support Section within PSCD
            coordinates headquarters support for the PSAs. This includes
            administrative and project management assistance, property management
            support coordination, IT support coordination, logistics, and data analysis
            and reporting. Because of the PSAs’ extensive travel, the branch
            dedicates two Field Support Team staff to organize travel and maintain
            travel records to support PSAs.

   Oil and Natural Gas Subsector
            The Energy Sector consists of thousands of geographically dispersed
            electricity, oil (petroleum), and natural gas assets. A myriad of systems
            and networks in most of the nation’s states and territories connect them. A
            wide variety of public and private entities own, operate, and regulate these
            assets. Because the activities and assets supporting electricity resources
            infrastructure differ significantly from those for oil and natural gas in
            extraction/generation, production, transport, distribution, and storage, each
            is separated into subsectors within the Energy Sector. The Department of
            Energy (DOE) is the SSA for the Energy Sector and its Oil and Natural
            Gas and Electricity Subsectors.

            The oil and natural gas industry is an example of a CIKR subsector that
            engages PSAs throughout the nation and requires coordination among
            many entities. The Oil
            and Natural Gas                U.S. Oil and Natural Gas Statistics [January 2010]
            Subsector is functionally      Number of Operable Refineries ............................ 150 

            diverse, consisting of         Oil, Natural Gas Pipeline Mileage .................. 2,534,000
 

            pipelines, control             Oil, Natural Gas Imports [barrels/day] ........... 10,487,000
 

            systems, above- and
                                           Sources: Energy Information Administration;
            below-ground storage 	         Pipeline and Hazardous Materials Safety Administration,
                                           Department of Transportation
            facilities, refineries,
            processing plants, and
            marine ports, as well as offshore and onshore fields and facilities. To
            secure and monitor its production cycle, the industry relies on a series of
            complex systems that involve physical and virtual capabilities for
            processing, refining, storing, and distributing or transporting fuel products.
            As an older and heavily regulated industry, the Oil and Natural Gas
            Subsector has mature mandatory and voluntary security policies and
            processes, which it implements independently, through industry
            associations, and with governmental oversight.




Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 10
 

            Oil and Natural Gas Subsector Stakeholders

            Within the Oil and Natural Gas Subsector, public-private partnerships
            address security issues of concern to the subsector, and share information
            on threats, vulnerabilities, and protective measures. The Oil and Natural
            Gas SCC represents private sector security partners. The SCC
            membership includes 23 trade associations and represents approximately
            98% of the industry’s owner/operators. A list of Oil and Natural Gas SCC
            members is in Appendix F.

            The Oil and Natural Gas Subsector relies heavily on Transportation
            Systems Sector infrastructure, including pipelines, freight rail, and
            maritime facilities. Because of these interdependencies, the Oil and
            Natural Gas SCC established the Pipeline Working Group, which also acts
            as a Pipeline SCC within the Transportation Systems SCC. This group
            allows the two SCCs to coordinate on oil and natural gas transportation
            security issues, and reduces duplicative meetings and efforts.

            In addition, many energy-related facilities and infrastructure also operate
            as chemical or hazardous materials facilities, creating interdependencies
            with the Chemical Sector. The Oil and Natural Gas SCC and Chemical
            SCC have formed joint working groups to discuss and make
            recommendations on issues of mutual concern, to include emergency
            management and metrics.

            There are also numerous national and regional associations and working
            groups with state and local official participation. These organizations
            coordinate activities and emergency response, and develop policies that
            affect oil and natural gas security. Further, private industry stakeholders
            have formed Facility Security Officer working groups, the Energy
            Security Council, and Internal Security working groups. Through these
            groups, members are able to network and share best security practices to
            enhance the overall security posture of the industry. In addition, some
            groups often invite federal and state partners, such as the Federal Bureau
            of Investigation and state Homeland Security Agencies, to participate.

            Regulatory organizations with roles in the various aspects of the oil and
            natural gas industry cover municipalities, cities, states, regions and federal
            offices, commissions, agencies, and departments. The industry’s many
            diverse facilities and commodities are separately regulated and have
            multiple stakeholders and trade associations. In addition, governmental
            agencies at the state, local, tribal, and federal levels are responsible for
            emergency planning, incident management, homeland security, and for
            preventing and responding to energy supply, demand, and pricing
            concerns.

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 11

                   The Department of Transportation’s Pipeline and Hazardous Materials
                   Safety Administration and the Pipeline Security Division of DHS’
                   Transportation Security Administration’s (TSA) Office of Transportation
                   Sector Network Management are responsible for the operational safety
                   and security of the oil and natural gas pipelines used to transport raw and
                   refined fuel products. The Pipeline and Hazardous Materials Safety
                   Administration develops uniform standards and administers the national
                   regulatory program to assure the safety of pipeline transport of natural gas,
                   petroleum, and other liquid hazardous materials. TSA’s Pipeline Security
                   Division endeavors to enhance the security preparedness of the nation’s
                   pipeline systems through security programs; assessments, reviews, and
                   analysis; and sharing industry best practices and lessons learned. The two
                   agencies executed a formal agreement in August 2006 to delineate lines of
                   authority and responsibility; and to establish guidelines for cooperation,
                   collaboration, and information sharing to ensure coordinated, consistent,
                   and effective activities, as well as no duplication of effort.

                   The U.S. Coast Guard regulates the ports, vessels, and waterfront facilities
                   used by the Oil and Natural Gas Subsector to ship or receive bulk
                   shipments. These ports, vessels, and facilities must meet the requirements
                   for security assessments and security plans implemented because of the
                   Maritime Transportation Security Act of 2002.12 This Act established a
                   consistent national security program by requiring port, facility, and vessel
                   assessments and plans that include such measures as screening and
                   personnel identification procedures, security patrols, access control, and
                   collaboration through area committees. The U.S. Coast Guard
                   promulgates and enforces regulations, policies, and directives
                   implementing the Act’s provisions; reviews security and incident response
                   plans; conducts assessments; and ensures alignment with existing
                   domestic maritime regulations and directives.

                   We reviewed how PSA Program operations and activities support DHS’
                   mission to identify, prioritize, assess, and protect the nation’s CIKR in the
                   Oil and Natural Gas Subsector of the Energy Sector. We also reviewed
                   the program’s role in coordinating with subsector stakeholders to help
                   strengthen critical infrastructure protection capabilities, identify
                   vulnerabilities, and reduce risks.




12
     Public Law 107-295 (November 25, 2002).



       Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                         Oil and Natural Gas Subsector 


                                                     Page 12
 

Results of Review
               PSAs develop relationships with private sector stakeholders to encourage
               mitigation and risk reduction actions at critical sites and facilities. PSAs
               also build partnerships with public sector stakeholders in state and local
               CIKR programs to assist and facilitate implementing the NIPP, including
               identifying, prioritizing, assessing, and securing public and private sector
               critical sites and facilities. Although PSA activities align with DHS’
               mission and the partnership model stated in the NIPP, there is no clearly
               defined mission statement directing PSA Program activities, and PSAs are
               unable to articulate effectively the program’s full value to public and
               private stakeholders. Unclear goals and objectives are also causing
               tension within DHS and with other governmental partners, as PSA
               activities and relationships appear to overlap, duplicate, or conflict with
               critical protection efforts of other entities. Lastly, the program needs to
               develop metrics properly suited to measuring outcomes achieved, while
               taking into account the diversity of each sector and jurisdiction.

      PSAs Develop Partnerships to Further Risk Reduction Efforts
               PSAs develop relationships with private sector stakeholders to encourage
               mitigation and risk reduction actions at critical sites and facilities. We
               separate the evolution of these relationships into four distinct phases—
               introduction, interaction, assessment, and change—and public and private
               stakeholders identified different benefits and some challenges at each
               phase. The PSA Program can improve the value realized in each phase by
               defining and communicating a clearer results-oriented mission and by
               improving its coordination and communication efforts with sector
               partners.

               From our interviews with a wide variety of stakeholders, PSAs develop
               stakeholder relationships in progression to further risk reduction efforts,
               and the evolution involves initial contact and introduction; increased
               engagement and interaction; assessments; and ultimately effecting change
               through stakeholders voluntarily implementing enhanced security
               measures. Figure 3 describes this progression. Differences in states,
               facilities, and sectors influence how quickly a PSA can progress
               relationships from the introduction phase, to the interaction and
               assessment phases, and eventually effect change.




   Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                     Oil and Natural Gas Subsector 


                                                 Page 13
 

Figure 3: PSA Partnerships to Risk Reduction




                                                                                          Source: OIG Analysis



               During the introduction phase, the PSA makes contact with stakeholders,
               either independently or through other established contacts. The PSA is
               building a network of contacts across sectors, companies, and public
               agencies by working directly with state and local government officials;
               conducting outreach calls and visits to agencies and facilities; attending
               meetings of regional, state, local, community, and industry organizations;
               and delivering briefings to introduce and advertise the PSA Program and
               DHS CIKR efforts. Stakeholders become aware that the PSA is available
               as a security resource, and DHS establishes initial stakeholder
               connections, creating an environment for future partnership.

               In the interaction phase, stakeholders, both public and private, use the PSA
               as a resource. The PSA and stakeholders communicate frequently on
               training opportunities and threat information as allowable. Stakeholders
               introduce the PSA to other contacts and invite participation in meetings
               and exercises. Stakeholders communicate PSA capabilities and resources
               available, further developing the PSA’s network. PSAs assist stakeholders
               in making valuable contacts with other federal, public, and private CIKR
               partners. The PSA is also an integral part of incident and event
               management. DHS receives additional benefits because the PSA can
               contact stakeholders for immediate situational awareness during incidents.
               DHS also gains state and local insight on the criticality of certain assets to
               specific regions and the Nation.




   Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                     Oil and Natural Gas Subsector 


                                                 Page 14
 

                  The assessment phase involves the PSA conducting or coordinating
                  vulnerability assessments. These assessments include preparations for
                  Special Security Events and incident response.13 Both public and private
                  stakeholders gain third party insight on the security posture of sites,
                  facilities, and communities; empowering stakeholders to implement
                  changes. DHS gains additional insight on national risk and
                  interdependencies, and progresses toward its ultimate goal of risk
                  reduction.

                  The change phase is the point where the stakeholder voluntarily
                  implements enhancements to its security posture. CIKR owner/operators
                  at the corporate and facility levels address vulnerabilities identified
                  through PSA assessments, thereby reducing risks and mitigating threats.

         Stakeholders Consider PSAs an Effective Resource
                  We interviewed public and private stakeholders in the oil and natural gas
                  industry, as well as various state and local CIKR protection partners.
                  Regardless of the phase, stakeholders described relationships with
                  designated PSAs and services provided as valuable.

                                          Phase One: Introduction

                                        Many PSAs described stakeholder introductions as
                                        crucial to developing a foundation for relationship
                                        progression, and rely on these relationships. These
                                        relationships allow PSAs to provide services, collect
                                        data on CIKR protective efforts, expand networks, and
                                        get information quickly to DHS senior leadership
                                        during an incident or event. Although a number of
                                        PSAs had established contacts and ties to communities
                                        before joining the program, PSAs build new
                                        relationships. In many cases, a PSA’s credentials,
                                        experience, approach, and work ethic help establish
                                        common ground with facility security managers. To
                           gain trust, acceptance, and to be of value, stakeholders said PSAs
                           need a humble demeanor, an eagerness to learn the industry, and
                           should be open and responsive. Stakeholders considered a PSA
                           most effective when willing to assist, while not being demanding
                           or disrespectful of the stakeholder’s time.


13
   Special Security Event is a DHS designation for an event that requires federal resources and unique
security plans and training because of anticipated dignitary attendance, event size, and event significance.



     Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                       Oil and Natural Gas Subsector 


                                                   Page 15
 

                      Most stakeholders said a PSA with law enforcement and military
                      background is critical in establishing common ground with security
                      managers, as facility security managers often have similar
                      experience. Stakeholders said PSAs do not need to be sector
                      experts, but need security expertise, an awareness of all pertinent
                      facilities, an understanding of the area’s geography, and a basic
                      understanding of a facility’s significance to the region and Nation.

                      Smaller Companies and Less Mature Sectors May Develop
                      Relationships More Rapidly

                      The majority of oil and natural gas industry owner/operators have
                      mature security procedures, with security personnel and operators
                      who have been securing facilities around the world for years. As a
                      result, the industry does not typically ask for assistance, which
                      makes transitioning to further relationship phases more
                      challenging. Some industry representatives suggested that because
                      so many larger oil and natural gas companies have the financial
                      resources and have been building their security measures for years,
                      smaller companies as well as sectors less accustomed to
                      infrastructure protection have a greater need for PSA services. In
                      some cases, one person might manage the infrastructure protection
                      at a facility, and starting and maintaining a more extensive
                      infrastructure protection program could be cost and resource
                      prohibitive. The free services the PSA advertises during the
                      introduction phase might be more attractive to certain facilities,
                      and those relationships may progress more rapidly.

                                     Phase Two: Interaction

                                   The interaction phase was most often described by
                                   stakeholders as important, since it provides access to
                                   no-cost services that help improve stakeholder security
                                   posture and capabilities without initial capital
                                   investment. Immediate access to CIKR or related
                                   information, intelligence, threats, training, and industry
                                   standards, is available through the PSA. PSAs also
                                   connect stakeholders to services from other DHS
                                   components, thereby serving as a one-stop shop. DHS
                                   gains increased engagement with critical infrastructure
                                   owner/operators, according to the NIPP concepts of
                                   partnership and collaboration. This improves the
                      communication and information sharing necessary for national
                      infrastructure protection.

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 16

                      In addition, a number of stakeholders said there are not enough
                      PSAs nationwide, citing reduced personal attention. Although
                      most stakeholders lauded their PSAs’ responsiveness, some said
                      PSAs are not always available and increased demands on the PSAs
                      without an increase in the PSA cadre could negatively affect PSA
                      interaction phase activities. Although developing a relationship
                      with a PSA was essential to trusting the PSA Program as a whole,
                      stakeholders said their relationship was with the program and not
                      necessarily with a particular PSA. Should a current PSA leave,
                      stakeholders recommend a period of overlap between the current
                      PSA and the new PSA to help ensure a smooth transition. In
                      response to the report, PSA Program officials responded that this
                      practice is not possible under current federal hiring processes and
                      Office of Personnel Management regulations.

                      To address transition issues, however, the PSA Program has
                      established procedures to mitigate potential gaps in coverage
                      experienced by a departing PSA. For example, when a PSA
                      leaves, the program directs another PSA or multiple PSAs from
                      neighboring districts to assume responsibility for the affected
                      district. The program introduces new PSAs to stakeholders prior
                      to a PSA’s departure to familiarize stakeholders with the new PSA,
                      formalize responsibility transition, and ensure continuity of effort.

                      PSAs Assist Stakeholders to Ensure Staffs Are Adequately Trained

                      Stakeholders often ask PSAs about training opportunities for the
                      private sector and state and local officials. In addition to online
                      courses on topics such as community hurricane preparedness,
                      available through FEMA, IP offers training courses targeted to
                      security managers, and can send teams to facilities to perform
                      these trainings at the stakeholders’ request. Examples of the
                      security training offered include surveillance detection courses and
                      private sector counterterrorism awareness workshops. As the
                      federal government funds those resources, the educational
                      opportunities promoted and coordinated through PSAs are
                      advantageous to stakeholders.

                      Some industry stakeholders receive regular updates on educational
                      opportunities from their PSAs, and have participated in
                      recommended courses, conferences, and seminars. As funded or
                      inexpensive targeted training for industry professionals has
                      become more difficult to find, having PSAs notify stakeholders of
                      any private industry-focused security training opportunities is
                      useful. Some stakeholders, however, expressed frustration that

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 17

                           private security managers do not have access to potentially
                           beneficial training courses only available to governmental
                           professionals.

                           PSAs Play a Significant Role in Incident and Event Management

                           For incidents and national profile security events, PSAs provide
                           support to local, state, and federal emergency management teams.
                           They also provide timely status information to DHS’ National
                           Infrastructure Coordinating Center (NICC) and IP leadership
                           concerning CIKR facilities.14 In addition, PSAs coordinate with
                           multiple entities to help private industry get facilities back online
                           quickly after an incident. PSAs are often the first DHS employees
                           on the scene in response to an incident. In combination with the
                           relationships built before an incident, PSAs can provide rapid
                           situational awareness to DHS and IP officials, and serve as an
                           information coordinator and needs liaison with local, state, federal,
                           and private sector stakeholders after an incident.

                           PSAs have access to state and local official distribution lists to
                           allow for immediate response, have a collaborative relationship
                           with FEMA on incident response issues, and provide assistance
                           when requested. When an incident occurs or is imminent, the
                           state’s Emergency Operations Center generally manages the
                           incident response, and PSAs report to the center and deploy as
                           necessary. From these locations, PSAs leverage their relationships
                           with private industry stakeholders to provide information to the
                           state’s Emergency Operations Center, the NICC, and IP leadership
                           on the status of specific critical facilities. PSAs are also able to
                           advise state and local stakeholders on specific facility
                           vulnerabilities, and help determine priorities for protection or
                           deploying resources.

                           For example, a number of stakeholders praised the PSAs’ incident
                           management activities, especially during recovery efforts for
                           Hurricanes Ike and Gustav in 2008. Stakeholders said PSAs
                           served as a direct line to funnel CIKR information and updates to
                           DHS and the NICC, and as a single point of contact for private
                           industry’s CIKR related needs. PSAs helped private sector
                           facilities restore operations and leveraged relationships with local

14
   The NICC is a 24-hour watch/operations center that maintains operational, situational, and incident
awareness of the nation’s CIKR sectors. The center provides for centralized coordination and exchange of
threat, alert, warning, incident, event, and other relevant information among the public and private sectors.



     Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                       Oil and Natural Gas Subsector 


                                                   Page 18
 

                      law enforcement officials, the state, and other agencies to facilitate
                      private industry employee re-entry to disaster-affected areas.

                      Stakeholders Value PSA Information Sharing Activities

                      PSAs facilitate information sharing daily; program officials
                      estimate that information sharing is 50% to 60% of a PSA’s job.
                      Across the Nation, PSAs participate in at least 52 different Oil and
                      Natural Gas Subsector security working groups and councils. To
                      ensure PSAs maintain relationships with as many stakeholder
                      groups as possible, some work with state homeland security and
                      emergency management officials to attend meetings, taking each
                      other’s messages to the meetings, and then briefing one another on
                      the proceedings.

                      Upon request, PSAs also provide private industry and some state
                      and local officials with threat information. As each relationship is
                      different, a PSA might automatically provide one stakeholder with
                      any relevant threat information, while waiting for a request from
                      another. When permissible, PSAs inform facilities how to
                      determine whether they are under surveillance, how to identify the
                      signs of other dangerous activities, and how the facility can
                      employ protection measures. In addition, PSAs share any daily
                      publicly available information, in some cases extracting and
                      sharing only the protective information of interest to a security
                      manager based on current events, the site, or location.

                      Stakeholders use the PSAs to obtain information on a variety of
                      topics, including proposed legislation and best practices. In some
                      instances, other entities contact a facility for information, and the
                      facility owner/operators call PSAs to vet the requesters. Some
                      stakeholders use the PSAs to get information on an event occurring
                      in another area where they may have facilities. A common
                      complaint, however, was that the information sharing was
                      sometimes one-sided, and sometimes not expedient. In addition,
                      some stakeholders note a considerable decline in information
                      sharing since the program’s inception, however, it was unclear
                      whether this was a result of modified policies within IP or reduced
                      information available to PSAs.

                      Stakeholder Information Sharing Has Improved, but Concerns
                      Remain

                      The background, approach, and interactions PSAs have with
                      industry stakeholders are significant in determining whether

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 19

                      stakeholders are willing to work with the program. However,
                      another indispensible factor to information sharing is building trust
                      in the PCII Program. A PCII designation protects business-
                      sensitive, security related facility, company, and industry
                      documents, records, or other data voluntarily submitted to DHS
                      from disclosure. Initially, most sectors and subsectors classified
                      CIKR reports, which hindered information sharing and best
                      practices exchanges among the stakeholders. Because of a PCII
                      designation, PSAs can disseminate general, sanitized reports about
                      sector and subsector issues as For Official Use Only, while
                      protecting any specific facility information and data provided by
                      the private sector from disclosure.

                      Private industry stakeholders and associations suggested that, in
                      combination with the relationships built with their PSAs, the PCII
                      Program helps facilitate the flow of information in an industry
                      known for a reluctance to share information. In addition, the PSAs
                      regularly attend many of the same meetings and working groups of
                      stakeholders, and share contacts with the private industry, and vice
                      versa. Industry stakeholders said that this constant interaction and
                      exposure has increased trust and fostered relationships. Because of
                      this, facilities grant PSAs access more quickly to help identify
                      vulnerabilities.

                      For other stakeholders, however, concerns remain about divulging
                      too much information. A common concern voiced was an
                      uncertainty about what DHS was doing with data it collected
                      during facility assessments, and whether DHS could use this
                      information against the stakeholders in the future. Despite
                      protections guaranteed by the PCII Program, stakeholders still
                      have data use and storage concerns.

                      PSAs Support State and Local Government CIKR Programs, But
                      Better Understanding of Government Programs is Necessary

                      PSAs bring additional CIKR-dedicated human and technological
                      resources to state and local governments, especially during
                      incident response. In many states, officials describe PSAs as a part
                      of their team and include PSAs in state agency meetings. Some
                      state partners use PSAs to help bridge relationship gaps between
                      them and private industry. Because of the current economic
                      environment and diminished state and local resources, some states
                      use PSAs more to assess and strengthen CIKR protection activities.
                      However, most state officials we spoke with were concerned that


Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 20

                            PSAs cannot currently provide enough support to compile CIKR
                            lists for state use and for submission to DHS.

                            In most states, the partnership between the PSA and the state’s
                            CIKR program focuses on the owner/operators, with the state and
                            PSAs presenting a consistent message to facilities. Working as a
                            team alleviates additional burdens on facilities; companies are
                            more receptive to this approach, often allowing the team to share
                            security-related information.

                            State officials said they want PSAs to have a better understanding
                            of all state and federal programs that relate to the Oil and Natural
                            Gas Subsector, not just those within IP or DHS. It would be more
                            useful for PSAs to know what the industry already does with other
                            assessments, inspections, studies, or evaluations before requesting
                            potentially duplicative information and data.

                            Some state officials also expressed the need for better
                            communication between DHS headquarters and PSAs, specifically
                            regarding the submission of CIKR for DHS’ critical asset lists.
                            While the PSAs offer states assistance in compiling the lists, the
                            PSAs are often unable to explain the criteria or identify an IP
                            representative who can explain why some assets are included on
                            the Level 1/Level 2 list and why some are not.15 Concerning
                            additional support needed from PSAs, some states want to use the
                            PSAs more for state CIKR data call submissions to DHS and for
                            asset prioritization. In response to the report, PSA Program
                            officials disputed this assertion and indicated it is a
                            misunderstanding of the PSAs’ role in the CIKR data call.

                            The PSAs’ role is to assist states in compiling the lists by helping
                            state personnel identify infrastructure critical to that state, and to
                            verify facility data, e.g., physical address, geospatial coordinates,
                            name. PSAs are not involved in establishing criteria, or the
                            determinations to include or not include facilities on the final
                            prioritized list of critical infrastructure, as this is the function of
                            IP’s Infrastructure Analysis and Strategy Division.


15
   Level 1/Level 2 (formerly called Tier 1/Tier 2) ranking is part of DHS’ National CIKR Prioritization
Program, identifying nationally significant critical assets and systems. This annual identification relies
heavily on the insights and knowledge of a wide array of public and private sector security partners. DHS
uses the rankings to determine eligibility and implementation of certain CIKR protection programs and
initiatives, such as grant programs, buffer zone protection efforts, facility assessments, training, and other
activities. The Level 1/Level 2 list is classified.



      Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                        Oil and Natural Gas Subsector 


                                                    Page 21
 

                      Some state officials thought it might be worthwhile to have a PSA
                      that focused on certain sectors and for more PSAs to be involved in
                      smaller events or incidents that do not reach the level for federal
                      assistance. Other state officials suggested a PSA working strictly
                      on state legislature issues and located in the state’s capitol would
                      be worthwhile.

                                     Phase Three: Assessment

                                   Vulnerability and risk assessments performed for
                                   stakeholders by DHS components identify security
                                   weakness areas and possible options for critical
                                   infrastructure security improvements. This guidance is
                                   extremely valuable as private sector stakeholders and
                                   state and local jurisdictions aim to minimize and limit
                                   expenditures. Developing stakeholder cooperation and
                                   collaboration is crucial to DHS building the national
                                   database of risk areas and inventory of critical
                                   infrastructure. It also provides DHS with information
                                   necessary to plan for the use of resources such as grant
                                   programs, research and development, exercises, and
                      additional training course development. Any specific facility
                      information and data provided by the private sector and collected
                      by IP during these assessments holds a PCII designation, which
                      typically exempts it from disclosure.

                      Private Sector Owner/Operators Consider Voluntary Assessments
                      Valuable

                      The PSAs conduct and coordinate vulnerability surveys and
                      assessments for private sector facilities. These assessment services
                      could cost as much as $25,000 when obtained privately, but are
                      made available to the stakeholders at no cost.

                      Site Assistance Visits

                      Site Assistance Visits (SAV) are voluntary. PSAs coordinate with
                      PSCD’s Vulnerability Assessment Branch to conduct an SAV.
                      The assessment team is composed of three to four individuals with
                      specialized skills and knowledge specifically suited to the facility
                      type and location. Most teams include bomb, technical, and
                      assault planning experts. During these assessments, the team
                      simulates likely threat scenarios to determine where security
                      vulnerabilities exist and to develop mitigation strategies. Some
                      facility security managers said the teams were sometimes so

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 22

                      knowledgeable about a facility’s technical operations it was
                      necessary to contact engineers and other staff to respond to team
                      questions.

                      The Vulnerability Assessments Branch conducts 250-300 SAVs
                      per year. An SAV requires 1-3 days to complete, depending on its
                      focus. The assessment team provides the owner/operator with an
                      initial assessment, and follows up with written report within 90
                      days. Stakeholders have full discretion to act or not act on report
                      recommendations.

                      Enhanced Critical Infrastructure Protection Initiative

                      While the SAV provides a more comprehensive look at facilities’
                      vulnerabilities and can be tailored to focus on specific aspects of
                      critical operations such as cyber and control systems, the Enhanced
                      Critical Infrastructure Protection (ECIP) Initiative is a voluntary
                      data collection and outreach program. The ECIP provides the PSA
                      with an opportunity to educate facility owner/operators on security,
                      and to promote communication and information sharing among
                      facility owner/operators, DHS, and state and local government
                      agencies. The PSA works with the facility’s security manager to
                      document the physical security, security force, security
                      management, information sharing, protective measures, and
                      dependencies that exist at a facility. PSAs collect data using a
                      standardized survey and this data is compiled into a Protective
                      Measures Index. The index is a quantitative protection measure
                      developed for each of the 18 different sectors, which allows for
                      security measures comparison with other similar facilities in the
                      same sector and subsector.

                      After the survey, the owner/operator receives the results in the
                      form of an ECIP Dashboard, which is an interactive electronic
                      reporting tool that provides a current picture of the facility’s
                      Protective Measures Index information, as well as a graphic
                      comparison of the facility’s index to other similar facilities. The
                      ECIP Dashboard allows the stakeholder to manipulate its security
                      posture variables and to determine how to improve protection in a
                      cost effective manner by prioritizing capital expenditures.
                      Stakeholders value the ability to make comprehensive comparisons
                      of their facility to similar facilities. These tools also allow DHS to
                      map facility, sector, and subsector interdependencies, and
                      determine whether resiliency exists. Therefore, the survey not
                      only serves as a strong relationship-building tool, but also allows
                      for data gathering on infrastructure protection levels in general.

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 23

                      States Benefit From Assessment Programs

                      While vulnerability assessments often take place on privately
                      owned infrastructure, states and local jurisdictions also benefit
                      from assessment programs that provide funding and help
                      communities prepare for incidents at facilities in their jurisdictions.

                      Regional Resiliency Assessment Program

                      The Regional Resiliency Assessment Program (RRAP) is a
                      voluntary IP-led interagency assessment of selected CIKR, along
                      with regional analysis of the surrounding infrastructure. The
                      RRAP identifies CIKR dependencies, interdependencies,
                      cascading effects, resiliency characteristics, gaps, and the
                      prevention and protection capabilities of owner/operators, local
                      law enforcement, and emergency response organizations.

                      Coordinated by PSCD and the PSAs, the RRAP is a collaborative
                      effort of IP that includes other federal agencies, public homeland
                      security officials, state and local government, and private-sector
                      owner/operators, working to enhance resilience of the CIKR and
                      surrounding communities. Some states may not be able to perform
                      similar assessments as efficiently and effectively without funding.

                      After the RRAP review, IP analyzes the information, determines
                      gaps in response capabilities, coordination and resources, and
                      documents the results in a written report. This information is
                      provided to the state's homeland security agency and participating
                      facilities. For example, a recent RRAP in New Jersey involved 18
                      sites in a ten-mile radius, and included at least 27 ECIPs and 18
                      SAVs. With this regional approach, the RRAP review can provide
                      a more complete assessment of resiliency, interdependency, and
                      security. RRAP projects take 3 to 6 months to execute, are very
                      collaborative, and attempt to leverage each organization’s
                      capabilities. Five RRAP projects were conducted in FY 2009, and
                      during our fieldwork, PSCD was finalizing the 2010 projects.

                      Buffer Zone Protection Program

                      Administered by FEMA, the Buffer Zone Protection Program
                      (BZPP) complements IP’s Vulnerability Assessments Branch
                      SAVs. While assessment visits recommend protections and
                      preparedness measures inside a facility’s perimeter, the BZPP
                      addresses protections and preparedness levels for the surrounding
                      area and emergency responders outside the facility.

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 24
 

                      The BZPP provides grant funding to increase the protection,
                      preparedness, and response capabilities of communities that
                      contain certain Level 1/Level 2 CIKR. The BZPP provides $50
                      million in grants annually to cover approximately 200 assets.
                      BZPP funding is allocated to states or territories based on the
                      number, type, and character of pre-identified higher-risk sites
                      within their respective jurisdictions. Funds are then further
                      distributed to community law enforcement and first responders
                      who react to incidents at those facilities. PSAs often help
                      jurisdictions apply for and conduct BZPP assessments. In
                      addition, some PSAs conduct ECIP surveys simultaneously with
                      BZPP assessments, providing the facility with the benefit of the
                      ECIP Dashboard, and the jurisdiction with the ability to apply for
                      funding to respond to emergencies at the facility.

                      Regulatory Obligations May Hinder the PSA Relationship
                      Building Progress

                      A perception that oil and natural gas industry regulation already
                      exists may hinder stakeholder program participation. Some
                      industry stakeholders said they do not take advantage of SAVs
                      because of previous experiences with the department, and because
                      stakeholders have existing obligations and reporting requirements
                      to DHS and other governmental regulatory programs. Other
                      stakeholders declined to participate in voluntary site visits and
                      assessments because they are already overwhelmed with DHS
                      regulations concerning chemical facility standards, transportation
                      worker identification, and other programs.

                      However, other stakeholders said the PSA Program bridges a gap
                      between DHS’ regulatory side and maintaining relationships to
                      help owner/operators protect facilities. For example, several
                      stakeholders have notified and invited their PSA, as an
                      independent observer, when another federal or state agency is
                      conducting an inspection, assessment, or exercise. Although these
                      stakeholders have not progressed to the assessment phase, they
                      said PSA Program services could be valuable, and would engage
                      the program more should corporate headquarters change policy.




Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 25
 

                                     Phase Four: Change

                                     Through efforts in the previous three phases, PSAs
                                     work towards having owner/operators implement risk
                                     reduction activities and improve protective measures at
                                     facilities. However, many factors outside of the PSA’s
                                     control influence whether a private sector facility will
                                     make any voluntary security enhancements. Some
                                     stakeholders stated that even though they knew the
                                     assessment recommendations were valid and useful,
                                     voluntary changes ultimately depend on financial
                                     resources and the strategic importance of a facility to
                                     the company.

                      While many stakeholders take advantage of PSA coordinated
                      services and assessments and have made significant steps toward
                      implementing recommendations, the PSA Program does not have
                      structured follow-up that tracks activities to determine what
                      influence the program has had on risk reduction. To evaluate the
                      change effected by the PSA Program, the program needs to track
                      and record stakeholders efforts, develop methods to compile
                      sufficient information for DHS to evaluate the national CIKR risk
                      posture, and use that information to inform PSA Program resource
                      efforts and future planning.


            Recommendation
                      We recommend that the Director of the Protective Security
                      Coordination Division:

                      Recommendation #1: Develop a process to track and record
                      voluntary assessment recommendation implementation, and use
                      this information to guide future PSA Program recommendations,
                      resource efforts, and planning.


            Management Comments and OIG Analysis
                      We evaluated NPPD’s written comments and have made changes
                      to the report where we deemed appropriate. A summary of
                      NPPD’s written response to the report recommendations and our
                      analysis of the response follows each recommendation. A copy of
                      NPPD’s response, in its entirety, is included as Appendix B.

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 26

                      We also received technical comments from the PSA Program and
                      the Department of Energy and incorporated those technical
                      changes into the report where appropriate. We appreciate the
                      comments and contributions made by each entity. NPPD/IP
                      concurred with five of our recommendations and did not concur
                      with two recommendations.

                      Management Response: NPPD/IP concurred with
                      Recommendation 1. NPPD officials responded that the PSA
                      Program already has established processes and metrics to track
                      voluntary implementation of security and resilience improvements
                      resulting from IP assessments. The PSA Program has
                      implemented 180-day follow-up interviews to capture information
                      on risk-reduction implementation activities following PSA
                      conducted ECIP security surveys. As facilities receive subsequent
                      ECIP surveys, additional data collected will inform the change
                      effected by the PSA Program. The 180-day follow-up currently
                      identifies improvements made or implemented to physical security,
                      security force, security management, information sharing,
                      protective measures, and dependencies.

                      NPPD officials responded further that in June 2010, using the
                      ECIP security survey and 180-day follow-up data, PSCD analyzed
                      voluntary protective measure implementation at facilities receiving
                      ECIP visits. This metric was the first ever produced demonstrating
                      the effect of the PSAs and ECIP security surveys. Based on initial
                      analysis of implementation data, IP is developing new performance
                      metrics that will reflect implementation of improvements to
                      security and resilience resulting from voluntary IP assessments.

                      NPPD will incorporate the 180-day follow-up process into other IP
                      assessments, namely the SAV. Through the 180-day follow-up
                      process and subsequent assessments of those same facilities, IP
                      will be able to capture and track improvements over time,
                      providing a better understanding of how the PSA Program, IP, and
                      NPPD are buying down risk for the Nation’s critical infrastructure.
                      The facility security and resilience data, and voluntary
                      implementation data captured by these IP assessments will allow
                      DHS to evaluate the national protection posture of critical
                      infrastructure, and inform NPPD, IP, and PSA Program goals,
                      future planning efforts, and resource allocations.




Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 27
 

                      OIG Analysis: We consider NPPD/IP’s proposed actions
                      responsive to Recommendation 1, which is resolved and closed.
                      No further reporting on this recommendation is required.


   A Well Defined and Communicated Mission Will Enhance
   Building Effective Critical Infrastructure Partnerships
            Although PSA activities align with DHS’ mission and the partnership
            model described in the NIPP, there is no clearly defined mission statement
            directing PSA Program activities. To measure the effectiveness of PSA
            activities, the program needs to identify and develop achievable
            milestones, based on results-oriented goals and objectives. Unclear goals
            and objectives are also causing tension with other governmental partners,
            as PSA activities and relationships appear to overlap, duplicate, or conflict
            with critical protection efforts of other entities. The majority of Oil and
            Natural Gas Subsector stakeholders said they are uncertain of the PSA
            Program’s overall mission. However, most stakeholders understand the
            role PSAs have in building and maintaining relationships and partnerships
            with the private sector; working with industry on assessing its exposure to
            threats and vulnerabilities; and addressing questions and providing
            information on DHS programs and operations.

                      PSA Activities are Aligned with Organizational Mission and
                      Goals

                      DHS is working to reduce the Nation’s vulnerability to terrorist
                      attacks, major disasters, and other emergencies. To do so in part,
                      DHS’ FY 2008-2013 Strategic Plan identifies the goal of
                      protecting CIKR and an accompanying objective of protecting and
                      strengthening resilience through the department’s efforts. These
                      efforts include mitigating potential vulnerabilities and fostering
                      partnerships to safeguard against the most dangerous threats and
                      risks to CIKR.

                      The department’s goal of protecting critical infrastructure is
                      delegated from NPPD to IP; protecting CIKR through risk
                      reduction is then delegated to PSCD. Within PSCD, the PSA




Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 28
 

                      Program intends to assist fulfilling this goal by aligning its
                      activities with NPPD and IP objectives. These activities include:

                          •	 Establishing partnerships with stakeholders; consolidating
                               preparedness assets from across DHS and facilitating grants;
                          •	 Supporting first responder training, citizen awareness,
                               public health, infrastructure, and cyber security; protecting
                               high-risk targets;
                          •	   Providing timely, actionable, and valuable threat 

                               information; 

                          •	   Implementing and maintaining a fully operational incident
                               management capability;
                          •	   Enhancing public and private sector self-sufficient risk
                               reduction activities; and
                          •	   Developing and implementing effective protective programs
                               to reduce risk to CIKR assets, systems, networks, and
                               functions.

                      To determine whether these PSA activities are contributing to
                      DHS’ mission, the program needs to identify its own mission, and
                      develop achievable milestones, based on results-oriented goals and
                      objectives.

                      Unclear PSA Program Mission Limits Ability to Develop
                      Stakeholder Relationships and Partnerships

                      With only an implied mission related to individual PSA activities,
                      the PSA Program is currently unable to identify what it intends to
                      accomplish. Several government and private stakeholders
                      expressed that the program’s mission was never clearly defined or
                      communicated. As a result, intended goals are unclear and there is
                      difficulty determining roles and responsibilities, which creates
                      overlap and some frustration. A clearly defined mission is
                      necessary for building relationships and partnerships with
                      stakeholders.

                      For example, ineffective initial communication and coordination
                      among program offices strained the relationship between DOE and
                      the PSA Program. DOE officials said there have been some
                      overall coordination improvements with the PSA Program.
                      Previously, very little to no advance notice was given to DOE
                      when PSAs went to Energy Sector assets and owner/operators, but
                      this is improving. DOE officials also said the roles and
                      responsibilities between IP and the SSAs need better definition,


Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 29

                      particularly in sectors where DHS is not the SSA, such as the
                      Energy Sector.

                      In addition, a clear and communicated PSA Program mission could
                      help stakeholders manage expectations, as well as understand the
                      activities and expertise of the PSA cadre. For example, some
                      stakeholders and federal partners do not recognize or understand
                      the distinction in roles between the PSA Program and the
                      Vulnerability Assessments Branch concerning survey and
                      assessment resources. While the PSA coordinates SAVs, the
                      Vulnerability Assessments Branch conducts these assessments.
                      Not understanding the PSAs’ role causes some stakeholders to
                      question whether PSAs have the sector specific expertise necessary
                      to conduct SAVs, even though PSAs do not conduct SAVs.

                      While the activities and responsibilities of the PSAs align with IP,
                      NPPD, and DHS missions, evaluating the PSA Program as
                      effective or ineffective without a stated mission and related
                      objectives is difficult. A clearly stated program mission, with
                      objectives and intended outcomes, will clarify PSA roles and
                      responsibilities for CIKR partners and stakeholders.


            Recommendations
                      We recommend that the Director of the Protective Security
                      Coordination Division:

                      Recommendation #2: Develop a mission statement for the PSA
                      Program, and communicate the mission within DHS, to public and
                      private stakeholders, SSAs, and other federal CIKR partners.

                      Recommendation #3: Develop achievable PSA Program
                      milestones, based on results-oriented goals. Goals and objectives
                      should align with and influence achieving IP, NPPD, and DHS
                      CIKR goals and objectives.


            Management Comments and OIG Analysis
                      Management Response: NPPD/IP concurred with
                      Recommendation 2. NPPD officials responded that PSAs do have
                      a clearly defined mission statement, described in the PSA Program
                      Management Plan. The PSA’s mission statement is to “Represent
                      DHS and IP in local communities throughout the United States.”

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 30

                      The PSA mission is to work with State Homeland Security
                      Advisors’ offices and their security partners throughout the region,
                      serving as liaisons between DHS; the private sector; and federal,
                      state, territorial, local, and tribal entities and acting as the DHS
                      onsite critical infrastructure and vulnerability assessment
                      specialists.

                      NPPD officials responded further that PSAs are able to articulate
                      the program’s mission to stakeholders, and that stakeholders
                      understand the program’s affect and value individually. However,
                      stakeholders do not perceive the broader, national level impact of
                      coordinated PSA activities across the country. NPPD officials said
                      the issue is not the lack of a mission statement, but rather mission
                      messaging to stakeholders such that stakeholders understand the
                      national level purpose and mission of PSA activities, and how
                      those activities link with activities of other federal agencies and
                      programs with similar responsibilities. The PSA Program will
                      communicate to stakeholders the PSA Program’s intended results
                      and overall mission better.

                      OIG Analysis: We consider NPPD/IP’s proposed actions
                      responsive to the intent of Recommendations 2, which is resolved
                      and open. The recommendation will remain open pending our
                      receipt of the PSA Program’s strategy and implementation plan to
                      communicate intended program results and its overall mission to
                      stakeholders better. The communication strategy and
                      implementation plan should include communication activities
                      within DHS, to public and private stakeholders, SSAs, and other
                      federal CIKR partners.

                      Management Response: NPPD/IP responded that it non-concurs
                      with Recommendation 3. Officials said the PSA Program has
                      reached a degree of operational maturity where it is no longer
                      focused on milestones, which are typically related to program
                      establishment, e.g., creating an IP/PSA presence in every state.
                      The PSA Program has matured and has developed performance
                      metrics to measure the results of its efforts, which align with and
                      influence achieving IP, NPPD, and DHS goals and objectives.
                      Program officials said further detail on these metrics is included in
                      its response to Recommendation 7.

                      OIG Analysis: Although NPPD/IP did not concur with this
                      recommendation, we consider the proposed actions responsive to
                      Recommendation 3, which is resolved and open. This

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 31

                      recommendation will remain open pending our receipt of approved
                      multi-year performance metrics and associated results-oriented
                      performance goals that demonstrate achievement of the PSA
                      Program’s mission; and that such efforts align with IP, NPPD and
                      DHS CIKR goals and objectives as referenced in IP’s responses to
                      Recommendation 1 and 7.


   Coordination and Communication within DHS Needs
   Improvement
            Within DHS, multiple components regulate and collaborate with the
            public and private sectors to protect CIKR. The number of assessments
            and requests for similar information from the department creates
            frustration within private industry, especially in the oil and natural gas
            industry where many governmental entities have safety, security, or
            oversight responsibilities. DHS’ internal coordination issues diminish the
            PSA Program’s value and improved collaboration is necessary to serve
            CIKR stakeholders and partners more efficiently and effectively.

                      Stakeholders Express Need for Better Coordination

                      Multiple stakeholders said the oil and natural gas industry’s
                      primary issue with the PSA Program is the need for coordination
                      between the different partners, and the program’s value diminishes
                      when DHS offices and components do not communicate
                      effectively. In November 2009, DHS’ Secretary met with the Oil
                      and Natural Gas SCC leadership, among others, to discuss critical
                      infrastructure security. The SCC leadership reiterated its need for
                      DHS to resolve internal coordination issues. While the industry
                      realizes agencies have different missions and mandates, better
                      coordination would reduce confusion among oil and natural gas
                      owner/operators.

                      As mentioned previously, some stakeholders have PSAs attend
                      regulatory inspections or routine safety reviews as an objective
                      observer. There are planned events, inspections, and reviews
                      where coordination between DHS components could improve. For
                      example, FEMA conducted a tabletop exercise in which numerous
                      DHS components helped plan and subsequently participated.
                      However, PSAs were neither informed nor invited to attend. As a
                      result, shortly after the exercise started, stakeholders and other
                      participants questioned why PSAs were not present. Even though
                      the oversight was resolved quickly, it highlights the need for more
                      effective communication within the department.

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 32
 

                      Assessments are Performed by Several DHS Components

                      The Oil and Natural Gas Subsector is heavily regulated, therefore
                      increased coordination and transparency is necessary.
                      Stakeholders said information often requested by one program is
                      similar to information already provided to another program.
                      Stakeholders want programs to exchange information rather than
                      answer the same questions multiple times. Many stakeholders
                      have a long working history with federal agencies, and they are
                      less concerned with sharing information among agencies than the
                      costs of redundant assessments and information requests.

                      Stakeholders referred to the multiple regulatory assessments
                      currently performed by DHS, including those under Chemical
                      Facility Anti-Terrorism Standards as well as the U.S. Coast
                      Guard’s Maritime Security directives and regulations pertaining to
                      the Maritime Transportation Security Act of 2002. The Chemical
                      Facility Anti-Terrorism Standards are mandatory for any facility
                      that manufactures, uses, stores, or distributes certain chemicals at
                      or above a specified quantity. IP’s Infrastructure Security
                      Compliance Division is responsible for carrying out the regulatory
                      assessments, promoting collaborative security planning, and
                      ensuring that covered facilities meet the risk-based performance
                      standards. The U.S. Coast Guard issues Maritime Security
                      Directives mandating specific security measures for vessels and
                      facilities when additional security measures are necessary to
                      respond to a threat assessment or to protect from a specific threat
                      against maritime elements of the national transportation system.

                      Further, TSA’s Pipeline Security Division conducts Corporate
                      Security Reviews to evaluate incident plans, programs, and
                      implementation. The Pipeline Corporate Security Review Program
                      is an on-site review of a pipeline operator’s security plan and its
                      implementation, conducted by TSA’s Pipeline Security Division
                      staff. The review uses a standard protocol to capture quantitative
                      and qualitative data that aid in prioritizing critical systems and in
                      establishing a baseline against which to evaluate minimum-
                      security standards in the industry and identify coverage gaps. In
                      addition, TSA conducts legislatively mandated Critical Facilities
                      Inspections; however, participation by facilities in these reviews is
                      voluntary, as are any actions recommended as a result of




Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 33
 

                            inspections.16 Stakeholders question why components within the
                            same department do not share this security information.

                            Although there is some duplication in assessments performed on
                            facilities concerning security, some stakeholders said that each
                            assessment has a different focus in addition to security. A number
                            of stakeholders said PSA assessments are attractive because they
                            are free, non-consequential, and provide third party credibility to
                            requests for security upgrades. Some stakeholders view
                            assessments negatively as they are very time consuming and work-
                            intensive for their staff. Therefore, it would be helpful to
                            stakeholders to have common security related assessment
                            information coordinated ahead of time.


                  Recommendation
                            We recommend that the Director of the Protective Security
                            Coordination Division:

                            Recommendation #4: Inventory regulatory and voluntary
                            assessments, reviews, and resources of tribal, local, state, and
                            federal governmental entities that affect Oil and Natural Gas
                            Subsector stakeholders, and determine where the PSA Program can
                            leverage efficiencies and enhance coordination.


                  Management Comments and OIG Analysis
                            Management Response: NPPD/IP concurred with
                            Recommendation 4. IP management responded that it agrees a
                            comprehensive inventory of these items would be beneficial to
                            PSAs to improve their sector knowledge. However, development
                            of such an inventory is not the responsibility of the PSA Program
                            or PSCD. Responsibility for maintaining this level of awareness of
                            relevant assessments, reviews, and resources affecting sectors lies
                            with the SSAs. Sector Specialists from IP’s Partnership and
                            Outreach Division will work with DOE to create a consolidated


16
   The Implementing Recommendations of the 9/11 Commission Act of 2007, Sec. 1557, Public Law 110-
53 (August 3, 2007), requires TSA to develop and implement a plan for reviewing pipeline security plans
and inspecting the critical facilities of the 100 most critical pipeline operators as identified by a September
2002 Department of Transportation circular.



      Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                        Oil and Natural Gas Subsector 


                                                    Page 34
 

                      inventory of the regulatory and voluntary assessments, reviews,
                      and resources that affect Oil and Natural Gas Subsector
                      stakeholders. The PSA Program will support IP’s Partnership and
                      Outreach Division in this endeavor to create the inventory, and
                      once completed, will determine where the PSA Program can
                      leverage efficiencies and enhance coordination. When the PSA
                      Program knows of assessments, reviews, and resources, officials
                      responded that the program already coordinates with relevant
                      stakeholders and works to create efficiencies.

                      OIG Analysis: We consider NPPD/IP’s proposed actions
                      responsive to Recommendation 4, which is resolved and closed.
                      No further reporting on this recommendation is required.


   More PSA Program Support to Sector Leadership Partners is 

   Needed 

            DHS has a responsibility to support and coordinate effectively with all
            SSAs. PSA interactions with stakeholders across the nation provide DHS
            with a unique opportunity to support ongoing SSA efforts to implement
            the NIPP in each sector, especially for SSAs with limited resources to
            maintain a similar continuous field presence. By effectively
            communicating with the SSA during strategic planning, the PSA Program
            can better align its assistance to support DOE. In addition, the PSA
            Program can benefit from increased interaction because of the vast sector-
            specific technical knowledge DOE possesses. Further, increased
            coordination with the Oil and Natural Gas SCC and greater presence at
            meetings would strengthen stakeholder and PSA Program communication,
            allow PSAs to be involved in strategies outlined in sector specific plans,
            and increase PSA Program awareness of issues and needs.

                      PSA Program Can Improve DHS’ Support of DOE

                      As the SSA, DOE is responsible for implementing the NIPP
                      framework and guidance as tailored to the specific characteristics
                      and risks of the Energy Sector as a whole, and the Oil and Natural
                      Gas Subsector specifically. DHS’ role is to help coordinate with
                      and support DOE in its efforts to lead, integrate, and coordinate the
                      activities of the sector and subsector, as well as providing
                      guidance, tools, and analytical support to the SSA and its
                      sector/subsector membership.

                      PSAs have a geographic advantage over some SSAs, as PSAs are
                      field-based and interact with stakeholders directly, whereas some

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 35

                           SSAs are headquarters-based and would need to send staff to
                           conduct field assessments and visits. DOE officials said they want
                           to be involved in the assessment programs, but do not have
                           additional dedicated resources to participate in most PSA field
                           assessments and visits.

                           Because DOE is unable to participate in most cases, officials are
                           concerned about PSA interactions with stakeholders and
                           information collected. For example, when PSAs first began
                           performing ECIPs, the program did not communicate with DOE on
                           ECIP objectives, what assessments it was conducting, and on
                           which facilities. DOE officials said they would prefer more
                           coordination and interaction with the PSA Program to facilitate
                           mutual objectives, as DOE is unsure of PSA expertise in the Oil
                           and Natural Gas Subsector. Conversely, PSA Program officials
                           said that because of differing perspectives, obtaining information
                           timely from DOE is sometimes challenging. For example, when
                           the program needs to respond to a request for information from
                           DHS leadership, DOE has not had the same urgency to obtain the
                           information. Additional coordination and interaction between the
                           PSA Program and DOE would provide a mutual understanding of
                           similar and competing objectives and perspectives.

                           DOE officials said both departments work well during
                           emergencies, but NICC information request coordination still
                           needs improvement. For example, in 2009 there was a fire at an
                           oil and natural gas facility in Puerto Rico. As a result, the NICC
                           sent a request for information to DOE and to DHS’ Homeland
                           Infrastructure Threat and Risk Analysis Center; the DHS center
                           responded that there were no substantial issues or problems at the
                           facility.17 DOE, however, responded that the incident could have
                           been serious because of the fuel type handled at the facility.
                           Conflicting assessments made it difficult for the NICC to obtain
                           timely situational awareness of the incident. By designating an
                           information lead for a facility and its interdependencies before an
                           incident, more efficient information exchange and situational
                           awareness reporting can occur.




17
   The Homeland Infrastructure Threat and Risk Analysis Center coordinates with the intelligence
community, law enforcement, SSAs, and owner/operators to produce actionable risk-informed products
that contain all-hazards warning, threat, and CIKR protection information for federal, state and local, and
private sector partners.



     Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                       Oil and Natural Gas Subsector 


                                                   Page 36
 

                      Increased PSA Program Coordination with Oil and Natural
                      Gas SCC Would Enhance Effectiveness

                      SCCs provide forums for private industry to identify and
                      implement effective information-sharing capabilities; organize and
                      coordinate sector policies; integrate public sector plans with
                      private-sector initiatives; and provide input to the government on
                      sector research and development efforts and requirements.
                      Increased coordination with the Oil and Natural Gas SCC and
                      greater presence at meetings would strengthen stakeholder and
                      PSA Program communication, allow PSAs involvement in
                      strategies outlined in sector specific plans, and increase PSA
                      Program awareness of issues and needs.

                      Oil and Natural Gas SCC officials said it does not receive enough
                      information from DHS and wants IP leadership to engage the SCC
                      about what the subsector needs from PSAs and DHS. SCC
                      officials said there is also an opportunity for the subsector to help
                      PSAs build necessary public sector relationships and eliminate
                      bottlenecks and misunderstandings. Incorporating the SCC into
                      early program development and planning would facilitate informed
                      exchanges on whether new programs are necessary, or whether
                      existing programs served the same purpose.

                      Although IP leadership is represented at the SCC meetings through
                      the Partnership and Outreach Division, SCC stakeholders want
                      PSA Program officials more actively engaged. Attending SCC
                      meetings would provide the PSA Program with information about
                      the industry at a local level, which would help bridge potential
                      gaps between program and industry needs. Working more closely
                      with the SCC and SSA would help program management align
                      PSA activities more effectively; understand sector needs and PSA
                      program effects; repair strained relationships; and further DHS
                      goals for developing and sustaining partnerships in all areas of
                      CIKR security.


            Recommendations
                      We recommend that the Director of the Protective Security
                      Coordination Division:

                      Recommendation #5: Establish formal coordination and
                      collaboration procedures with DOE to facilitate information
                      exchange and ensure that DHS and PSA Program field efforts align

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 37

                      and support DOE as the SSA for the Oil and Natural Gas
                      Subsector.

                      Recommendation #6: Establish routine PSA Program leadership
                      involvement in Oil and Natural Gas SCC meetings to obtain
                      Subsector information during project development and to ensure
                      program activities and initiatives align with sector needs and sector
                      specific plans.


            Management Comments and OIG Analysis
                      Management Response: NPPD/IP responded that it non-concurs
                      with Recommendation 5. IP management said that its current
                      efforts meet the intent of this recommendation, as it has formal
                      coordination and collaboration procedures established with all
                      SSAs. IP coordinates directly with all SSAs and at meetings of
                      individual GCCs, the Federal Senior Leadership Council, and their
                      working groups. The PSA Program follows existing procedures to
                      coordinate and collaborate with the SSAs through IP’s Partnership
                      and Outreach Division and its Sector-Specific Agency Executive
                      Management Office.

                      IP responded that in particular, PSCD and PSA Program officials
                      engage DOE to participate in a multitude of efforts. DOE
                      personnel responsible for SSA functions have established
                      relationships and points of contact within PSCD and the PSA
                      Program that afford DOE direct access to rapidly communicate and
                      address issues that may arise. DOE receives briefings and
                      information on PSA efforts, which the PSA program will continue
                      to provide.

                      As an example of collaboration efforts, IP officials said that the
                      PSA Program is working with all SSAs to calibrate the weights
                      and scores of the ECIP security surveys to address the unique
                      characteristics of each sector. These efforts will enhance the utility
                      of the ECIP surveys and Dashboards to owner/operators by
                      providing a more accurate comparison of similar facilities.

                      In August 2010, DOE personnel met with PSA Program personnel
                      to adjust ECIP security survey scores and weights to address the
                      unique characteristics of the Energy Sector, its subsectors,
                      segments, and assets. With the assistance of the SSAs, DHS will
                      be able to provide a more complete picture of the current posture
                      of facilities within a sector, as well as across the sectors. The PSA

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 38

                      Program also regularly coordinates with SSAs by providing
                      notification of upcoming ECIP visits, and providing ECIP security
                      survey data.

                      OIG Analysis: We consider IP’s current and proposed actions
                      partially responsive to Recommendation 5, which remains resolved
                      and open. The intent of this recommendation is for the PSA
                      Program to establish formal coordination and collaboration
                      procedures with DOE to facilitate information exchange, which IP
                      demonstrated it has done. However, we also recommended that
                      the PSA Program ensure its field efforts align and support DOE as
                      the SSA for the Oil and Natural Gas Subsector. DOE officials said
                      they want to be involved in the assessment programs, but do not
                      have additional dedicated resources to participate in most PSA
                      field assessments and visits. Because DOE is unable to participate
                      in most cases, officials are concerned about PSA interactions with
                      stakeholders and information collected.

                      Recent efforts by the PSA Program to collaborate and
                      communicate more effectively with DOE and other SSAs on ECIP
                      metrics development are commendable; and DOE acknowledges
                      that communication has improved. This recommendation will
                      remain open pending our receipt of documentation that supports
                      the engagement of and coordination with DOE concerning PSA
                      Program field assessments and visits, and details PSA interactions
                      with Oil and Natural Gas Subsector stakeholders and information
                      collection.

                      Management Response: NPPD/IP concurred with
                      Recommendation 6. IP responded that it has formal coordination
                      and collaboration procedures between it and the SCC through IP’s
                      Partnership and Outreach Division, which is the main interaction
                      conduit between the SCCs and IP. IP leadership, including PSA
                      Program management staff, routinely attends Energy Sector and
                      Subsector Critical Infrastructure Partnership Advisory Council
                      meetings and conference calls, when invited, to discuss IP
                      activities. IP leadership also attends Oil and Natural Gas
                      Subsector SCC meetings, when invited, although the SCC has
                      historically preferred to reserve such discussions for the Critical
                      Infrastructure Partnership Advisory Council meetings.

                      IP’s Partnership and Outreach Division will continue to elicit
                      specific concerns and needs of the Oil and Natural Gas Subsector
                      SCC, and ensure such communication to IP and DHS entities,
                      including the PSA Program, to facilitate improved activity

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 39

                      coordination and collaboration. PSCD and the PSA Program will
                      continue to work with critical infrastructure partners, including the
                      SCCs, to ensure that advances in critical infrastructure protection
                      tools and methodologies align with sector-level needs and national
                      priorities.

                      OIG Analysis: We consider IP’s proposed actions responsive to
                      Recommendation 6, which remains resolved and open. Although
                      IP has formal coordination and collaboration procedures between it
                      and the SCC through its Partnership and Outreach Division,
                      incorporating the SCC into early program development and
                      planning would facilitate informed exchanges on whether new
                      programs are necessary, or whether existing programs serve the
                      same purpose.

                      Establishing routine PSA Program leadership involvement in Oil
                      and Natural Gas SCC meetings to obtain subsector information
                      during project development would ensure PSA Program activities
                      and initiatives align with sector needs and sector specific plans.
                      This recommendation will remain open pending our receipt of
                      documentation that the PSA Program is working routinely with the
                      SCCs, and details program efforts to ensure that advances in
                      critical infrastructure protection tools and methodologies align
                      with sector-level needs and national priorities.


   Current Metrics are Inadequate to Measure PSA Program
   Performance and Outcomes
            As the PSA Program currently uses quantitative metrics to evaluate
            performance, those metrics only identify the amount of activity carried out
            by PSAs and do not demonstrate what outcome resulted from conducting
            assessments. By developing qualitative measures, the program would be
            able to assess the value of those activities to stakeholders. Current
            quantitative metrics do not consider jurisdictional and sector differences,
            and as more assessments of CIKR facilities occur, qualitative measures
            that capture assessment value will become increasingly important.
            Because interaction with the PSA Program is voluntary and there is no
            mandatory follow-up, it may be difficult for program officials to
            determine whether coordination of vulnerability assessments, incident
            support, and information sharing have improved the security posture of
            stakeholders. In addition, because of the nature of risk mitigation, it may
            be difficult to measure the effect of PSA activity on the Nation’s CIKR
            risk. However, this is not specific to the PSA Program, and will continue
            to be a challenge for the sectors and DHS’ CIKR efforts overall.

Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 40
 

                      PSA Performance Metrics Do Not Capture Full Program
                      Effectiveness

                      The PSA Program currently evaluates its effect through four PSA
                      performance metrics. All four are quantitative, and based on
                      counting instances of a specific activity carried out by PSAs or
                      supporting staff:

                          •	 Outreach visits to partners and facilities, which include
                             working on or planning protection efforts through
                             assessments, exercises, information sharing, or incident
                             response;
                          •	 National-level assessments, which include coordinating and
                             working on prevention and protection efforts through
                             training and evaluating strategies;
                          •	 Analyses performed on specific threats using vulnerability
                             and consequence information for highly populated cities
                             with a large CIKR concentration; and
                          •	 Analyses performed on nationally designated special events
                             to support the Federal Coordinator.

                      While these dissemination measures are valuable for
                      demonstrating PSA efforts to help facilities and communities
                      reduce exposure, these outputs do not demonstrate specific actions
                      or risk reduction outcomes resulting from those actions. In
                      addition, the current metrics do not fully capture PSA liaison
                      activities. A major aspect of a PSA’s usefulness to DHS and
                      stakeholders is the ability to build reliable relationships during
                      events and incidents. Current metrics count PSA attempts to
                      establish a relationship; they do not measure stakeholder
                      satisfaction with the PSA or measure whether a PSA has become a
                      true stakeholder resource. The PSA Program can obtain this
                      information by becoming more engaged in SCC meetings and
                      receiving direct feedback from stakeholders.

                      Preparedness, Engagement, and Openness Differ Among
                      Sectors

                      The 18 CIKR sectors differ significantly in nature, scope,
                      engagement in critical infrastructure protection efforts, and NIPP
                      implementation. Most of the oil and natural gas industry has been
                      securing and protecting its infrastructure for decades because of
                      threats such as vandalism, eco-terrorism, natural disasters, and
                      product theft.


Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 41
 

                      The industry as a whole frequently shares best practices through
                      trade associations and committees, as well as professional
                      organizations that focus on the sector, and numerous regulatory
                      agencies often include security among the areas routinely
                      inspected.

                      Many other sectors, however, are just beginning to recognize
                      CIKR vulnerabilities and risk levels. This is an area of opportunity
                      for the PSA Program to build relationships and provide needed
                      services. However, many facilities, especially if unregulated, are
                      unfamiliar with sharing security details with governmental entities,
                      and may be less likely to engage in a relationship and partnership
                      with the program. In addition, some industries, even when
                      accustomed to regulation, are extremely reluctant to share
                      information with anyone, especially government entities.
                      Relationships must be built slowly and deliberately to demonstrate
                      partnership value and necessity for the PSA to progress its risk
                      reduction relationship. When the PSA Program measures
                      effectiveness quantitatively, there is no opportunity to determine
                      the differences in sector openness, engagement, and levels of
                      preparedness and organization.

                      Distribution of CIKR Assets Differ Among Jurisdictions

                      Some states have high concentrations of critical infrastructure in
                      certain areas. For example, oil and natural gas industry assets are
                      more predominant in certain states, such as those in the Gulf Coast
                      region. In some states, such as New Jersey, these assets may be
                      concentrated in close proximity to populated areas or other
                      industries that could pose a threat should disruption occur. Some
                      states may have three or four critical facilities spread over a large
                      geographic area, while a city in another state may have more than
                      100 critical assets. In addition, some cities or states may have
                      large, recurring national level exercises, while in another state the
                      PSA might work on a number of smaller local exercises. An asset
                      rich location can provide a PSA with many opportunities to engage
                      stakeholders, which stakeholders have described as extremely
                      valuable. This engagement increases the likelihood of conducting
                      assessments. The PSA Program measures its effectiveness by PSA
                      performance, and current performance metrics do not account for
                      jurisdiction and geographic differences, which could affect
                      program performance estimates.




Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 42
 

                              Measuring Program Effect Will Continue to be a Challenge

                              Challenges in measuring PSA Program risk reduction efforts will
                              continue because stakeholder participation is voluntary, and PSAs
                              have not tracked or recorded recommendation implementation.
                              Although the surveys and ECIP Dashboard inform owner/operators
                              how to further reduce risk, the program has not conducted
                              subsequent assessments at those facilities. These tools provide the
                              facility with a picture of its current protective measure index, but
                              do not account for a comparison of protection levels over time. By
                              increasing coordination and information sharing with the SSAs and
                              other regulatory entities, the PSA Program may be able to obtain
                              data regarding changes in protective measures over time.

                              In addition, because the PSAs have not conducted multiple ECIPs
                              and SAVs at the same facility, there is the potential for assessment
                              of all critical infrastructure assets in a jurisdiction. Though this
                              may be many years in the future, such an occurrence would
                              diminish quantitative metrics value, and increase the importance of
                              determining stakeholder satisfaction.

                              According to DHS’ Strategic Plan, qualitative and quantitative risk
                              assessments will inform the department’s decisions on the use of
                              limited resources, which “will be targeted at the most significant
                              threats, vulnerabilities, and potential consequences.”18 The PSA
                              Program needs to be prepared to measure efforts and activities
                              using quantitative and qualitative metrics where appropriate.


                    Recommendation
                              We recommend that the Director of the Protective Security
                              Coordination Division:

                              Recommendation #7: Define qualitative metrics that account for
                              the extent to which PSA activities contribute to achieving PSA
                              Program, IP, NPPD, and DHS CIKR protection goals and
                              objectives.




18
     U.S. Department of Homeland Security Strategic Plan Fiscal Years 2008-2013, September 2008.



        Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                          Oil and Natural Gas Subsector 


                                                      Page 43

            Management Comments and OIG Analysis
                      Management Response: NPPD/IP concurred with
                      Recommendation 7: In its response, IP said that the PSA Program
                      has grown and matured since its inception to become a focal point
                      for IP activities and interaction with state, local, tribal and
                      territorial and private sector partners, and DHS as a whole. As
                      such, IP developed new metrics to capture the program’s impact on
                      securing the Nation’s critical infrastructure. As noted in response
                      to Recommendations 1, PSCD is using 180-day assessment follow-
                      up interviews to capture data on how the PSAs, IP, and NPPD are
                      buying down risk for the Nation’s critical infrastructure
                      owner/operators, and demonstrating progress in protecting critical
                      infrastructure.

                      This implementation data is being used to develop performance
                      metrics for the PSA Program that demonstrate how PSA activities
                      contributed to PSA Program, IP, NPPD, and DHS critical
                      infrastructure protection and resilience goals and objectives, as
                      articulated in the Quadrennial Homeland Security Review and
                      Bottom Up Review.

                      OIG Analysis: We consider IP’s proposed actions responsive to
                      Recommendation 7, which remains resolved and open. However,
                      the proposed metrics as described in IP’s response suggest
                      outcome-based efforts that align more with guiding programmatic
                      planning and measuring progress toward specific CIKR goals and
                      objectives. Assessing and mitigating CIKR vulnerabilities is only
                      one aspect of the PSA Program’s partnership with stakeholders,
                      and metrics based on such data do not capture the less tangible
                      aspects of the program’s successes or challenges. The intent of
                      this recommendation is to develop qualitative measures, so that the
                      program would be able to assess the value of those activities to
                      stakeholders.

                      Because the PSA Program builds relationships, soliciting feedback
                      from public and private sector stakeholders on the quality of their
                      interactions with the PSAs and the value of the program as a DHS
                      resource is key in measuring the program’s success. This
                      recommendation remains open pending our receipt of metrics
                      designed to capture qualitative measures, which assess the value of
                      those activities to stakeholders.




Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                  Oil and Natural Gas Subsector 


                                              Page 44
 

Conclusion
               Public and private stakeholders consider the PSA Program an effective
               resource. Initially focused on establishing local partnerships to increase
               resilience of CIKR against terrorism, PSA activities have expanded to
               include all aspects of securing and protecting the nation’s CIKR in an all-
               hazards environment. As more innovative methods, techniques, and tools
               are developed, the program is adapting accordingly to meet the needs of
               DHS’ partners and to maintain PSA Program staff capabilities. While
               extensive stakeholder relationships and partnerships are developing at the
               state, local, and community levels, more attention is necessary to
               incorporate national level partners and stakeholders into PSA Program
               strategic planning. Enhanced efforts to coordinate within DHS and to
               collaborate with federal partners would increase the program’s value to
               stakeholders.




   Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                     Oil and Natural Gas Subsector 


                                                 Page 45
 

Appendix A
Purpose, Scope, and Methodology
Appendix A:        Purpose, Scope, and Methodology




                                                     We reviewed how the PSA Program supports DHS’ mission to
                                                     protect the nation’s CIKR in the Oil and Natural Gas Subsector of
                                                     the Energy Sector. We also reviewed the program’s role in
                                                     coordinating with subsector stakeholders to help strengthen critical
                                                     infrastructure protection capabilities, identify vulnerabilities, and
                                                     reduce risks. We did not include an evaluation of the Electricity
                                                     Subsector in this review. Our objectives were to determine:

                                                        •	 to what extent PSAs are aligned to support NPPD’s mission
                                                           and DHS’ overall critical infrastructure protection strategy;
                                                        •	 the metrics that the PSA Program uses to assess its own
                                                           performance;
                                                        •	 whether adequate guidance and resources have been 

                                                           provided to support program growth; 

                                                        •	 the methods that PSAs use to coordinate with and assist oil
                                                           and natural gas stakeholders in identifying, prioritizing,
                                                           assessing, and protecting critical infrastructure and key
                                                           resources in this subsector; and
                                                        •	 how oil and natural gas stakeholders use the work
                                                           performed by PSAs to help strengthen the subsector’s
                                                           critical infrastructure protection capabilities, identify
                                                           vulnerabilities, and reduce risks.

                                                     We reviewed relevant legislation, regulations, directives, policies,
                                                     strategic plans, annual reports, and collected program documents,
                                                     including budgets, official guidance documents and manuals,
                                                     guidelines, operating procedures, and position descriptions. We
                                                     also studied work previously performed by our office and the
                                                     Government Accountability Office in this and associated areas.

                                                     In Washington, D.C., we interviewed PSA Program officials; other
                                                     officials within IP’s Protective Security Coordination,
                                                     Infrastructure Information Collection, and Partnership and
                                                     Outreach Divisions; as well as officials in TSA’s Pipeline Security
                                                     Division. We also interviewed DOE officials from the Office of
                                                     Fossil Energy and Office of Electricity Delivery and Energy
                                                     Reliability’s Infrastructure Security and Energy Restoration
                                                     Division.

                                                     We conducted fieldwork in locations where we could obtain
                                                     multiple Oil and Natural Gas Subsector stakeholder perspectives.
                                                     We visited New Orleans and Baton Rouge, Louisiana; Oklahoma
                                                     City, Oklahoma; Austin and Dallas, Texas; New York City and


              Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                                Oil and Natural Gas Subsector 


                                                                         Page 46
 

Appendix A
Purpose, Scope, and Methodology

                          Albany, New York; Trenton, New Jersey; and Sacramento and Los
                          Angeles, California.

                          In each state visited, we interviewed PSAs; state and local
                          homeland security and emergency management officials; oil and
                          natural gas industry facility and security managers; and industry
                          and trade association representatives. Our stakeholder sample
                          included officials who had worked with one or more PSAs
                          regularly, periodically, and only a few times. We also spoke with
                          stakeholders who had never worked with a PSA, as well as
                          stakeholders unaware of the PSA Program.

                          We conducted telephone interviews with stakeholders in Corpus
                          Christi and Houston, Texas; Salt Lake City, Utah; and Washington,
                          D.C. We also interviewed the IP Regional Directors in Atlanta,
                          Georgia and Salt Lake City, Utah, as well as the PSA in
                          Anchorage, Alaska by telephone.

                          PSAs, state and local emergency management and homeland
                          security officials we interviewed are involved in all 18 CIKR
                          sectors. Therefore, stakeholder perspectives describe PSA work in
                          all sectors represented in specific jurisdictions and districts,
                          although examples provided are specific to the Oil and Natural Gas
                          Subsector.

                          We performed our fieldwork between November 2009 and April
                          2010. We initiated this review under the authority of the Inspector
                          General Act of 1978, as amended, and according to the Quality
                          Standards for Inspections, issued by the President’s Council on
                          Integrity and Efficiency.




    Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                      Oil and Natural Gas Subsector 


                                                  Page 47
 

Appendix B
Management Comments to the Draft Report
Appendix B:          Management Comments to the Draft
Report




                                                                                               UfJiL'c' of/lro: UIIIII/f St'Cfl'tUf}'
                                                                                               l\'lIIfl/lmll·(/J/.'Ctiol. IIml Pf"Xflllllj Difec/llmlc'
                                                                                                I.S.lkll:lrtnttnl o(II,,",,:l:Inll ~«urit~
                                                                                                \\ #I~hin~t"n, Il( :!OS:!~



                                                                                               Homeland
                                                                                               Security
                                                            OCT 22 2010
              MEMORANDUM FOR:                           Richard L. Skinner
                                                        Inspector Genernl

              FROM:                                     Rand Beers      /J   A
                                                        Under Secrctary ij V I

              SUI3JECT:                                 NPPD Responsc to the Department ofllomcland Security's omc:~
                                                        or Inspcctor Gcneral draft rcport, Protecth'e Security Advisor
                                                        Program Efforts {() Build EffcC:live Criticallll/rastrllcture
                                                        Pal'fllCrships: Oil and Natural Gas SubsecfOr (OIG·09·203·ISP·
                                                        NPI'D)

              This memorandum responds to the scven rccommendations outlined in the August 2010
              Department or Homeland Securily's Orticc or Inspcctor Gcncral (DIG) report Protecfh'e
              Security Advisor Program EffiJrls to Build J:.llecli\'l! Critical Infrastructure Partnerships: Oil a"d
              Natural Gas Subsector. The rccommcndations were all direcled to the Nalional Protection and
              Programs Directorate's (NPPD's) Office of Infrastntcturc Protection (IV) I>rotective Security
              Coordination Division (PSCD). which operates the Protective Security Advisor (PSA) Program.

              Recommcndation #1: Develop a process to lruck and record voluntary asscssmcllI
              recomlllcndmion implcmcTlIation, and lISC this information to guide fi.nurc PSA Program
              recommcndations, rcsource crrorts. and planning.

              Response: NPPDIlP concurs wilh this recommendatioll, and has alrcady established proccsscs
              and mctrics to trad vollllllary implementation or security and resilicnce improvcments as a
              restlll or IP assessments. Thc PSA Program has implemented 180-day rollow-up interviews thai
              arc spccifically designcd 10 capture infonnatiol1 on implemcntation or risk reduction activities
              following PSA-conducted Enhanced Criticallnrrastructure Protection (ECIP) security survcys.
              As racilitics recci\!e subsequent ECIP surveys. more data can be collected that will infoml Ihe
              change cfTecled by lhe PSA Program. '111C 180·day follow-up currently identifies improvemcnts
              madc or implcmented to physical sccurily. security rorce. sceurily managemcnt, infomlation
              sharing, protcctive measures. and dependencies.

              In Junc 201 0, llsing the EelP S~ClJrjty survcy and 180·day lollow-up data, PSCD analyzed ror
              the firsttirnc the implementation ofvolulltary protective measures at facilities receiving ECIP
              visits. or lhe 473 facilities. 234 (49%) made improvcments during the 180-day follow-up
              period. Those 234 l'acilities made a tOlal of 497 improvcmcnts across information sharing,
              securilY managcmcnt, security force. physical security, and dependencics. This mctric Wi.lS Ihe
              first ever produced demonstraling the impnct of the PSAs and ECIP security surveys. Based 011




                Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                                  Oil and Natural Gas Subsector 


                                                                         Page 48
 

Appendix B
Management Comments to the Draft Report


                                                                                                      2


   this initial analysis of implementation data, IP is developing new performance melrics that will
   reflect implementation of improvements to security and resilience as a result of voluntary IP
   assessments. These new metrics are in the process of being approved by NPPD.

   This 180-day follow-up process to capture implementation dala is also being incorporated into
   other IP assessments, namely the Site Assistance Visit (SAV}, a facility vulnerability assessment
   coordinated by the PSAs and conducted by IPIPSCD's vulnerability assessment teams. The
   SAV is a more in-depth assessment that builds on the EelP security survey data that will capture
   and report on improvements related to facility threats. options for consideration to mitigate
   vulnerabilities. commendable actions. and resilience in addition to the ECIP security survey
   categories of infonnation sharing, security management, security force, physical security, and
   dependencies.

   Certain nationally significant critical infrastructure facilities receive (or are offered) EClP
   security surveys every year. Additionally, ECIP security surveys are used to identify facilities
   that may benefit from the more in-depth SAY. In this manner, SAYs are conducted as follow-
   ups to ECIP security surveys. Through the ISO-day follow-up process and subsequent
   assessments of those same facilities, IP will be able to capture and track improvements over
   time, providing a better understanding of how the PSA Program, IP, and NPPD are buying down
   risk for the Nation's critical infrastructure. The facility security and resilience data, and
   voluntary implementation data captured by these IP assessments will allow the Department of
   Homeland Security (DHS) to evaluate the national protection posture of critical infrastructure,
   and infonn NPPD,IP, and PSA Program goals, future planning efforts, and resource allocations.

   Recommendation #2: Develop a mission statement for the PSA Program, and communicate the
   mission within DHS, to public and private stakeholders, SSAs [Sector Specific Agencies], and
   other Federal CIKR [Critical Infrastructure and Key Resources] partners.

   Response: NPPDIIP concurs with the recommendation. The PSAs do have a clearly defined
   mission statement, which is described in the PSA Program Management Plan. The PSA's
   mission statement is 10 "represent DHS and IP in local communities throughout the United
   States."

   The mission of the PSAs is to work with State Homeland Security Advisors' (HSAs) offices and
   their security partners throughout the region, serving as liaisons between DHS; the private sector;
   and Federal, State, territorial,local, and tribal entities and acting as the DHS onsite critical
   infrastructure and vulnerability assessment specialists. During natural disasters and contingency
   events, PSAs work in State and local emergency operations centers and provide expertise and
   support to the IP Infrastructure Liaison Cell, working to support the Principal Federal Official
   and Federal Coordinating Officer responsible for domestic incident management. Additionally,
   PSAs provide support to officials responsible for special events planning and exercises, and
   provide real-time infonnation on facility significance and protective measures to facility owners
   and operators and State and local representatives.

   PSAs are able to articulate the program's mission to stakeholders, and the stakeholders
   understand the impact and value that it has for them individually; however, the stakeholders do




    Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                      Oil and Natural Gas Subsector 


                                                  Page 49
 

Appendix B
Management Comments to the Draft Report

                                                                                                       J


  not perceive the broader. national level impact of coordinated PSA activities across the country.
  The issue is not the lack of a mission statement, but rather the messaging of this mission to
  stakeholders such that they understand the national level purpose and mission of PSA activities
  and how they link with those of other Federal agencies and programs with similar
   responsibilities. The PSA Program will better communicate to stakeholders the PSA Program's
   intended results and overall mission.

   Recommendation #3: Develop achievable PSA Program milestones. based on results-oriented
   goals. Ooals and objectives should align with and influence achieving DIP, NPPD, and DHS
   CIKR goals and objectives.

   Response: NPPDflP non-concurs with the recommendation. The PSA Program has reached a
   degree of operational malUrity where it is now no longer focused on mile5tones, which are
   typically related to program establishment (e.g., creating an IPIPSA presence in every State).
   The PSA Program has matured and has developed performance metrics to measuTC the results of
   its efforts (see Recommendation #7 for more further detail on these metries), which are aligned
   with and influence achieving IP. NPPD. and DHS goals and objectives.

   Recommendation #4: Inventory regulatory and voluntary assessments, reviews. and resources
   of tribal, local, State, and Federal governmental entities that affect Oil and Natural Gas Subsector
   stakeholders, and determine where the PSA Program can leveragc efficiencies and enhance
   coordination.

   Response: NPPDflP concurs with the recommendation. IP agrecs that a comprehensive
   inventory of these items would be beneficial to provide to the PSAs to improve their sector
   knowledge; however, development of such an inventory is not the responsibility of the PSA
   Program or PSCD. Responsibility for maintaining this level of awareness of relevant
   assessments, reviews, and resources affecting Sectors lies with the Sector-Specific Agencies
   (SSAs). Sector Specialists from IP's Partnership and Outreach Division (POD) will work with
   the Department of Energy (DOE). the SSA for the Oil and Natural Gas Subsector,to create a
   consolidated inventory of the regulatory and voluntary assessments, reviews, and resources that
   affect Oil and Natural Gas Subsector stakeholders. The PSA Program will support POD in this
   endeavor to create the inventory. and once completed, will determine where the PSA Program
   can leverage efficiencies and enhance coordination. Where other assessments. reviews, and
   resources are already known to the PSA Program, the Program docs coordinate with relevant
   stakeholders and work to create efficiencies.

   Recommendation #5: Establish formal coordination and collaboration procedures with DOE to
   facilitate information exchange and ensure that DHS and PSA Program field efforts align and
   support DOE as the SSA for the Oil and Natural Gas Subsector.

   Response: NPPDnp non-eoncurs with the recommendation as current efforts meet the intent of
   the recommendation. Formal coordination and collaboration procedures between IP and all
   SSAs are already established. IP coordinates with all SSAs directly and at meetings of
   individual Government Coordinating Councils (GCes), the Federal Senior Leadership Council,
   and their working groups. The PSA Program follows the existing procedures to coordinate and




    Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                      Oil and Natural Gas Subsector 


                                                  Page 50
 

Appendix B
Management Comments to the Draft Report

                                                                                                     4



   collaborate with the SSAs through IP/POD and IP's Seclor-Specific Agency Executive
   Management Office (SSA EMO).

   DOE in particular has been engaged by PSCD and PSA Program officials to participate in a
   mullilude ofefforts. In addition to the standard cbmmunication channels described in the
   previous paragraph, DOE personnel responsible for SSA functions have established relationships
   and points of contact within PSCD and the PSA Program that afford them direct access to rapidly
   communicate and address issues that may arise. The PSA Program provides DOE with briefings
   and information on PSA efforts, and will continue to do so.

   As an example of collaboration efforts, the PSA Program is working with all SSAs to calibrate
   the weights and scores afthe EelP security surveys (0 address the unique characteristics ofeach
   sector, which will enhance the utility aftbe EelP surveys and Dashboards to owners and
   operators by enabling more accurate comparisons of like facilities. In August 2010, DOE
   personnel met with PSA Program personnel to adjust ECIP security survey scores and weights to
   address the unique characteristics of the Energy Sector. its subscctors, segments. and assets.
   With the assistance of the SSAs. DHS will be able to providc a more completc picture of the
   current posture of facilities within a sector as well as across the sct:tors. The PSA Program also
   regularly coordinates with SSAs by providing nOlification of upcoming ECIP visits. and
   providing ECIP security survey data.

   Recommendation 116: Establish routine PSA Program leadership involvement in Oil and Natural
   Gas Subsector SCC meetings to obtain SCC information during project development and to
   ensure program activities and initiatives align with sector needs and sector-specific plans.

   Rnponu: NPPD/IP concurs with the recommendation. Fonnal coordination and collaboration
   procedures between IP and the Sector Coordinating Councils (SCC) are already established
   through POD, who is the main conduit for interaction between the SCCs and IP. IP leadership,
   including PSA Program management stafT, routinely attends Energy Sector and Subsector
   Critical Infrastructure Partnership Advisory Council (CIPAC) meetings and conference calls
   when invited to discuss IP activities. IP leadership also attends Oil and Natural Gas Subsector
   SCC meetings. when invited, although the SCC has historically preferred to reserve such
   discussions for the CIPAC meetings. POD will continue to elicit specific concerns and needs of
   the Oil and Natural Gas Subsector SCC, and ensure they are communicated to IP and DHS
   entities. including the PSA Program. to facilitate improved activity coordination and
   collaboration. PSCD and the PSA Program will continue to work with critical infrastructure
   partners. including the SCCs, to ensure that advances in critical infrastruclure protection tools
   and methodologies align with sector-level needs and national priorities.

   Recommendation 117: Define qualitative metrics that account for the extent to which PSA
   activities contribute to achieving PSA Program, IP. NPPD, and DHS CIKR protection goals and
   objectives.

   Response: NPPDIIP concurs with the rerommendation. Understanding that the PSA Program
   has grown and matured since its inception to become a focal point for IP activities and
   interaction with State, local, tribal and territorial and private sector partners, and DHS as a




   Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                     Oil and Natural Gas Subsector 


                                                 Page 51
 

Appendix B
Management Comments to the Draft Report


                                                                                                      5


   whole, new metncs have been developed 10 better capture the Program's impact on securing the
   Nation's critical infrastructure. As noted in response 10 recommendations #1, PSCD is using
   ISO-day assessment follow-up interviews to capture data on how the PSAs, IP, and NPPD are
   "buying down risk" for the Nation's critical infrastructure owners and operators, and
   demonstrating progress in protecting critical infrastructure. This implementation data is being
   used 10 develop perfonnance mclrics for the PSA Program that demonstrate how PSA activities
   contributed to PSA Program.IP, NPPD. and DHS critical infrastructure protection and resilience
   goals and objectives, as articulated in the Quadrennial Homeland Security Review and Bottom
   Up Review.

   Other Report Findings:

   In addition to the responses to the seven recommendations in the draft report, IP/PSCD has the
   following comments about other audit findings that are not expressly included in the
   recommendations.

   With regard to the report's finding that "[sJhould a current PSA leave, stakeholders recommend a
   period of overlap between the cUlTent PSA and the new PSA to help ensure a smooth transition,"
   it is the position of IP/PSCD that this is not possible under the Federal hiring process and Office
   of Personnel Management regulations. IP/PSCD has been fortunate to have an uncommonly
   high retention rate for PSAs. However, to address the issue of transition, the PSA Program has
   established procedures to mitigate any possible lack of coverage that could be experienced by the
   departure of a PSA. When a PSA leaves, the PSA Program directs another PSA (or multiple
   PSAs) from neighboring districts to assume responsibility for the affected district. The new PSA
   is introduced to stakeholders prior to the departure of the outgoing PSA in order to familiarize
   stakeholders with the new individual, fonnalize the transition of responsibility, and ensure
   continuity ofefTort. The IP Regional Director is also typically involved in facilitating this
   transition. This new PSA covers the district of the outgoing PSA, in addition to his own, until
   the outgoing PSA is pennanently replaced. Once the pennanent replacement is hired or
   identified, the pennanent replacement is transitioned into the district in the same fashion.

   The report also presented the perception that the PSAs did not effectively assist States in the
   development of annuallisls of prioritized CIKR:

   "Some state officials also expressed the need for better communication between DHS
   headquarters and PSAs, specifically regarding the submission ofCIKR for DHS' critical
   asset lisls. While the PSAs ofTer states assistance in compiling the lists, the PSAs are often
   unable to explain, or identify an IP representative who can explain, the criteria for why some
   assels are included on the Levell/Level 2 list, and why some are not. Concerning additional
   support needed from PSAs, some stales want 10 use the PSAs more for stale CIKR data call
   submissions to DHS and for assel prioritization."

   IP/PSCD vigorously disputes this assertion, as this is an instance of the States misunderstanding
   the role of the PSAs in the CIKR dala call. In this case the States are requesting infonnation of
   the PSAs that is outside of the scope of their responsibility and authority to provide. The role of
   the PSA in the CIKR data call is to assist States in compiling the lists by helping State personnel




   Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                     Oil and Natural Gas Subsector 


                                                 Page 52
 

Appendix B
Management Comments to the Draft Report

                                                                                                          6


   identify infrastructure critical to thal State, and to verify facility data (e.g., physical address.
   gcospalial coordinates, name). PSAs are nol involved in the establishment of the criteria, or the
   determinations to include or not facilities on the final prioritized list of critical infrastructure, as
   this is the function of IP'g Inrraslructurc Analysis and Strategy Division (lAS D). PSAs do not
   participate in those analyses or make those decisions, as it is beyond the scope of their
   responsibilities. PSAs can, and do. facilitate Siaies' questions and requests 10 the appropriate IP
   representatives to provide the requested explanations when possible. IP is aware of these issues
   related to the dala call, and is actively working 10 offer more direct support to the States to
   improve coordination, eliminate confusion over the role of the PSAs, and reduce the burden on
   State personnel. For the recent FY 2011 CIKR data call, IP and IASD made more personnel and
   resources available to Stales to assist in the list development process and to answer questions
   regarding the criteria and selection decisions. This increased support included:

       •   Dedicated IP regional risk analysts and subject mailer experts to answer questions to
           supplement the support provided by the PSAs;
       •   In-person data call assistance visits to the States (all States and territories were offered
           the opportunity for in-person visits to assist with the identification of qualifying
           infrastructure; 42 were Visited);
           Teleconferences with Homeland Security Advisors and critical infrastructure protection
           program directors to discuss preliminary list dcterminations;
           Online Webinars, guidance documents, newsletters; and
           Dissemination of a lessons Icarned documcnt providing examples of successful
           nominations to help partners identify similar infrastructure and improve justification.

   The application of these additional resources has provided States with direct access to personnel
   and resources that will address the critical infrastructure list·related issues identified in this
   report. The increase in direct support to States from IASD should alleviate the inequitable
   situation wherein PSAs are expected to provide support beyond their capabilities and assigned
   rolcs and responsibilities.

   NPPD/IP is pleased to see that the OIG found that "(pJublic and private stakeholders confirm
   that the Protective Security Advisor Program is an effective resource," and that "the program is
   adapting accordingly to meet the needs of department partners and to maintain program stafT
   capabilities." These findings support and are consistent with a recent report by the State, Local,
   Tribal, and Territorial Government Coordinating Council (SLITGcq, entitled "Aligning
   Federal CIKR Capabilities to Meet Needs in the Field," datcd May 2010. The value orthe PSA
   program was specifically cited in the SLlTGCC Rcport, which states, "The joint visits at CIKR
   sitcs by PSAs and the SLIT representatives in that jurisdiction have improved the ability to
   collaborate between levels of government and with CIKR owners and operators." Additionally,
   the report states:

    "The PSA Program is successful for three key reasons: it was established with its
    stakeholders in mind, PSAs contribute valuablc tools to the field, and the program has
    resulted in increased partnership across the country. The following aspects are particularly
    effective:




   Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                     Oil and Natural Gas Subsector 


                                                    Page 53
 

Appendix B
Management Comments to the Draft Report

                                                                                                     7



          •   The program was developed in consultation with SLIT governments.
          •   PSA have the ability to provide products and tools of significant value to SLIT
              governments and CIKR owners and operators.
          •   A non-regulatory approach governs PSA activities.
          •   The hard work ofPSAs in the field has yielded improved partnerships."

   We extend our thanks for the opportunity to work with the Office of Inspector General during
   this engagement. The Office of Inspeetor General's independent analysis ofprogram
   perfonnance greatly benefits NPPO's ability to improve its activities and refine its programs.
   We look forward to continuing this partnership in the future.

   Should you have any qucstions, please contact Michael McPoland, Director, NPPD GAO-OIG
   Liaison Office at (703) 235-2175.




    Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                      Oil and Natural Gas Subsector 


                                                  Page 54
 

Appendix C
Sectors, Subsectors, and Sector-Specific Agencies
Appendix C:        Sectors, Subsectors, and Sector-Specific Agencies




CIKR Sector (Subsector)                                                Sector-Specific Agency         Profile
 Banking and Finance                                                   Department of the Treasury       Financial institutions including banks, insurers,
                                                                                                        securities brokers/dealers, and investment
                                                                                                        companies
 Chemical                                                              DHS/Office of Infrastructure     Facilities converting raw materials into chemical
  • Basic Chemicals                                                    Protection                       products, or using, storing, packaging, transporting,
  • Specialty Chemicals                                                                                 delivering, marketing, recycling, and disposing of the
  • Agricultural Chemicals                                                                              chemicals; including manufacturing plants, transport
                                                                                                        systems, distribution systems (storage, stockpile,
  • Pharmaceuticals
                                                                                                        and supply areas), and research and educational
  • Consumer Products                                                                                   institutions
 Commercial Facilities                                                 DHS/Office of Infrastructure     Office/apartment buildings, condominiums, mixed-
  • Real Estate                                                        Protection                       use facilities, self-storage
  • Public Assembly                                                                                     Arenas, stadiums, aquariums, zoos, museums,
  • Sports Leagues                                                                                      convention centers
                                                                                                        Professional sports leagues and federations
  • Gaming
                                                                                                        Casinos
  • Lodging                                                                                             Hotels, motels, conference centers
  • Outdoor Events                                                                                      Theme and amusement parks, fairs, campgrounds,
  • Entertainment & Media                                                                               parades
  • Retail                                                                                              Motion picture studios, broadcast media
                                                                                                        Retail centers and districts, shopping malls
 Communications                                                        DHS/Office of Cybersecurity      Broadcasting, cable, wireline industries, and
                                                                       & Communications                 networks supporting the Internet; using terrestrial,
                                                                                                        satellite, and wireless transmission systems
 Critical Manufacturing                                                DHS/Office of Infrastructure     Facilities producing, processing, or converting:
   • Primary Metal                                                     Protection                       Iron, steel, ferro alloys, and aluminum
   • Machinery                                                                                          Engines, turbines, and generators
   • Electrical Equipment                                                                               Electrical transformers
                                                                                                        Motors, switchboard apparatus, relays, and industrial
   • Appliances & Components
                                                                                                        controls
   • Transportation Equipment                                                                           Motor vehicles, aerospace products, and railroad
                                                                                                        rolling stock
 Dams                                                                  DHS/Office of Infrastructure     Water retention and/or control facilities, including
                                                                       Protection                       dams, hydropower plants, navigation locks, levees,
                                                                                                        hurricane barriers, and industrial waste
                                                                                                        impoundments
 Defense Industrial Base                                               Department of Defense            Entities performing military-related work, including
                                                                                                        researching, developing, designing, producing,
                                                                                                        delivering, and maintaining military weapons
                                                                                                        systems, subsystems, components, or parts
 Emergency Services                                                    DHS/Office of Infrastructure     System of elements for saving lives, protecting
                                                                       Protection                       property and the environment, assisting
                                                                                                        communities impacted by disasters (natural or
                                                                                                        malevolent), and aiding recovery from emergency
                                                                                                        situations
                                                                                                        [Primary protector for all other CIKR]
 Energy                                                                Department of Energy             Generation, transmission, and distribution of electric
  • Electricity                                                                                         power, except for commercial nuclear power
  • Oil & Natural Gas                                                                                   facilities
                                                                                                        Production, refining, storage, and distribution of oil
                                                                                                        and natural gas




              Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                                Oil and Natural Gas Subsector 


                                                                                           Page 55
 

Appendix C
Sectors, Subsectors, and Sector-Specific Agencies

CIKR Sector (Subsector)                  Sector-Specific Agency               Profile
Food and Agriculture                     Department of Agriculture -          Network of systems of production, processing, and
 • Producers/Plant                       (Meat, poultry, and egg              delivery including privately owned farms, ranches,
                                         products; production                 and groves; livestock transport areas, and
 • Producers/Animal
                                         agriculture)                         slaughterhouses; crop production and food
 • Processors/Manufacturers
                                                                              processing facilities; supply chains for feed, animals,
 • Restaurant/Food Service               Food & Drug Administration -
                                                                              seed, and fertilizers; institutional food services, and
 • Retail                                (Food other than meat,
                                         poultry, and egg products;
                                                                              grocery stores; domestic and imported food supply
 • Warehousing/Logistics                                                      safety programs; food assistance programs, and
                                         food safety and defense)
 • Agricultural Production                                                    food distribution mechanisms (transportation and
   Inputs & Services                                                          warehouses)
Government Facilities                    DHS/Federal Protective               Buildings owned or leased by Federal, state,
 • Educational Facilities                Service                              territorial, local, or tribal governments, including
                                                                              office buildings, embassies, courthouses, and
                                         Department of Education -            national laboratories
                                         (Educational Facilities)             All public and private K-12 schools; public and
                                                                              private higher education institutions, and vocational
                                                                              and trade schools
Healthcare and Public Health             Department of Health &               Network of systems to prevent disease and
                                         Human Services                       disability, treat patients, foster public health, and
                                                                              respond to public health emergencies including
                                                                              hospitals, laboratories, blood banks, and medical
                                                                              supply manufacturing and distribution
Information Technology                   DHS/Office of Cybersecurity          Virtual and distributed functions producing and
                                         & Communications                     providing hardware, software, IT systems and
                                                                              services, and the Internet
National Monuments and Icons             Department of the Interior           Monuments, physical structures, or sites widely
                                                                              recognized to represent the nation's heritage,
                                                                              traditions, or values, or of important national
                                                                              cultural, religious, historical, or political significance
Nuclear                                  DHS/Office of Infrastructure         Commercial nuclear power plants; nuclear and
                                         Protection                           radiological materials used in medical, industrial,
                                                                              and academic settings; and the transportation,
                                                                              storage, and disposal of nuclear materials and
                                                                              radioactive waste
Postal and Shipping                      DHS/Transportation Security          Providers receiving, processing, transporting, and
                                         Administration                       distributing letters and parcels, including high-
                                                                              volume automated processing facilities; collection,
                                                                              acceptance, and retail operations; courier services;
                                                                              chartered air delivery services; and information and
                                                                              communications networks
Transportation Systems                   Department of                        Aircraft, commercial airports, and heliports
  • Aviation                             Transportation                       Railroads, track, freight cars, and locomotives
  • Freight Rail                                                              Roadways, signature bridges, and tunnels
                                         DHS/U.S. Coast Guard -               Transit buses, trolleybuses, ferryboats, subways, light
  • Highway                              (Maritime)                           rail, and cable cars
  • Mass Transit
                                         DHS/Transportation Security          Water-faring vessels, coastline, ports, navigable
  • Maritime                                                                  waterways, and intermodal landside connections
                                         Administration -
  • Pipeline                                                                  Networks of natural gas, hazardous liquids, and
                                         (Pipeline)
                                                                              chemical pipelines
Water                                    Environmental Protection             Public drinking water systems and wastewater
                                         Agency                               systems (sanitary sewage treatment)

     Sources: National Infrastructure Protection Plan, February 2009; 2009 Critical Infrastructure Partnership Advisory Council Annual Report;
 

                                    The National Strategy for the Physical Protection of Critical Infrastructures and Key Assets, February 2003;
 

                             DHS CIKR Resource Center (http://training.fema.gov/EMIWeb/IS/IS860a/CIKR/sectorMenu.htm, accessed 4/24/10).
 





        Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships:
                                          Oil and Natural Gas Subsector

                                                                  Page 56
Appendix D
PSA Program Organization Chart
Appendix D:        PSA Program Organization Chart




              Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                                Oil and Natural Gas Subsector 


                                                            Page 57
 

Appendix E
Energy Government Coordinating Council Membership
Appendix E:        Energy Government Coordinating Council Membership




                 U.S. Department of Energy
                      •	 Bonneville Power Administration
                      •	 Office of Fossil Energy
                      •	 Office of Electricity Delivery and Energy Reliability, Office of
                         Infrastructure Security and Energy Restoration
                 U.S. Department of Homeland Security
                      •	 National Cyber Security Division
                      •	 National Infrastructure Protection Plan Program Management Office
                      •	 Office of Infrastructure Protection
                      •	 Office of Infrastructure Protection, Sector Specific Agency Executive
                         Management Office, Chemical Branch
                      •	 Office of Infrastructure Protection, Sector Specific Agency Executive
                         Management Office, Dams Branch
                      •	 Science & Technology Directorate
                      •	 Transportation Security Administration
                      •	 Transportation Security Administration, Pipeline Security Division
                      • U.S. Coast Guard
                 Environmental Protection Agency
                 Federal Bureau of Investigation
                 Federal Energy Regulatory Commission
                 National Association of Regulatory Utility Commissioners
                 National Association of State Energy Officials
                 Natural Resources Canada
                 State, Local, Tribal, and Territorial Government Coordinating Council
                 Tennessee Valley Authority
                 U.S. Army Corps of Engineers
                 U.S. Committee on the Marine Transportation System
                 U.S. Department of Agriculture
                 U.S. Department of Defense
                 U.S. Department of the Interior, Minerals Management Service
                 U.S. Department of the Treasury
                 U.S. Department of Transportation
                      •	 Maritime Administration
                      • Pipeline and Hazardous Materials Safety Administration
                 Western Area Power Administration




              Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships:
                                                Oil and Natural Gas Subsector 


                                                                       Page 58
 

Appendix F
Oil and Natural Gas Sector Coordinating Council Membership
Appendix F:        Oil and Natural Gas Sector Coordinating Council Membership




                 AGL Resources, Inc. 

                 American Exploration & Production Council 

                 American Gas Association 

                 American Petroleum Institute 

                 American Public Gas Association 

                 Anadarko Petroleum Corporation 

                 Apache Corporation 

                 Association of Oil Pipe Lines 

                 BP 

                 Canadian Association of Petroleum Producers 

                 Canadian Energy Pipeline Association 

                 Center for Liquified Natural Gas 

                 Collier, Shannon, Scott 

                 Colonial Pipeline 

                 ConocoPhillips 

                 Dominion Resources, Inc. 

                 Duke Energy 

                 Edison Chouest Offshore, LLC 

                 Enbridge 

                 Energy Security Council 

                 ExxonMobil 

                 Flint Hills Resources 

                 Gas Processors Association 

                 Genesis Energy, Inc. 

                 Independent Petroleum Association of America 

                 International Association of Drilling Contractors 

                 International Liquid Terminals Association 

                 Interstate Natural Gas Association of America 

                 Kinder-Morgan Pipelines 

                 Leffler Energy 

                 Marathon Petroleum Company 

                 MSW Consulting, LLC 

                 National Association of Convenience Stores 

                 National Ocean Industries Association 

                 National Petrochemical & Refiners Association 

                 National Propane Gas Association 

                 Nella Oil 

                 NiSource, Inc. 

                 Noble Drilling Services, Inc. 

                 Offshore Marine Service Association 

                 Offshore Operators Committee 

                 Petroleum Fuel & Terminal Company 

                 Petroleum Marketers Association of America 

                 Questar Gas Company 


              Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships:
                                                Oil and Natural Gas Subsector 


                                                                                Page 59

Appendix F
Oil and Natural Gas Sector Coordinating Council Membership

       Rowan Companies, Inc.
       Sempra Energy
       Society of Independent Gas Marketers Association
       Spectra Energy
       Suncor Energy
       U.S. Oil & Gas Association
       Western States Petroleum Association
       Williams Energy




    Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships:
                                      Oil and Natural Gas Subsector 


                                                  Page 60
 

Appendix G
Major Contributors to This Report
Appendix G:        Major Contributors to This Report




                                                       Marcia Moxey Hodges, Chief Inspector, Department of Homeland
                                                       Security, Office of Inspector General, Office of Inspections

                                                       Katherine Roberts, Team Leader, Department of Homeland
                                                       Security, Office of Inspector General, Office of Inspections

                                                       Kimberley Lake, Inspector, Department of Homeland Security,
                                                       Office of Inspector General, Office of Inspections

                                                       Amy Tomlinson, Inspector, Department of Homeland Security,
                                                       Office of Inspector General, Office of Inspections




              Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                                Oil and Natural Gas Subsector 


                                                                          Page 61
 

Appendix H
Report Distribution
Appendix H:        Report Distribution




                                         Department of Homeland Security

                                         Secretary
                                         Deputy Secretary
                                         Chief of Staff
                                         Deputy Chief of Staff
                                         General Counsel
                                         Executive Secretariat
                                         Director, GAO/OIG Liaison Office
                                         Assistant Secretary for Office of Policy
                                         Assistant Secretary for Office of Public Affairs
                                         Assistant Secretary for Office of Legislative Affairs
                                         Under Secretary for National Protection and Programs Directorate
                                         Assistant Secretary for Infrastructure Protection
                                         NPPD Audit Liaison
                                         IP Audit Liaison
                                         Director of Local Affairs, Office of Intergovernmental Affairs

                                         Office of Management and Budget

                                         Chief, Homeland Security Branch
                                         DHS OIG Budget Examiner

                                         Congress

                                         Congressional Oversight and Appropriations Committees, as
                                         appropriate




              Protective Security Advisor Program Efforts to Build Effective Critical Infrastructure Partnerships: 

                                                Oil and Natural Gas Subsector 


                                                            Page 62
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
